<html>
<title> - TRANSPORTATION AND HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2017</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]


 
TRANSPORTATION AND HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2017

                              ----------                              


                       WEDNESDAY, MARCH 16, 2016

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:30 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Susan Collins (chairman) 
presiding.
    Present: Senators Collins, Blunt, Boozman, Capito, Reed, 
Mikulski, Coons, Schatz, and Murphy.

                      DEPARTMENT OF TRANSPORTATION

                        Office of the Secretary

STATEMENT OF HON. ANTHONY FOXX, SECRETARY


             opening statement of senator susan m. collins


    Senator Collins. The subcommittee will come to order.
    Today, we welcome Secretary Foxx, who will testify on the 
President's fiscal year 2017 budget request for the Department 
of Transportation (DOT) as well as Inspector General Scovel, 
who will discuss his office's budget request and the oversight 
and other work the Office of Inspector General (OIG) has been 
and will be conducting at the Department.
    The budget proposes $98 billion for the Department of 
Transportation in mandatory and discretionary spending for 
fiscal year 2017. The administration has asserted that this 
request abides by the bipartisan budget agreement Congress 
passed last year. Regrettably, that is simply not accurate.
    Instead of living within fiscal reality, the budget evades 
the caps by using the same old gimmicks that we have seen in 
past proposals. By shifting programs from discretionary to 
mandatory, the President is able to show a 36-percent reduction 
in spending under the budget caps. At the same time, he takes 
credit for increasing DOT's overall budget by almost 30 
percent. This undermines the essence of the budget agreement.
    I am also disappointed that just 3 months after Congress 
passed the Fixing America's Surface Transportation Act (FAST 
Act), the budget proposes an entirely new 10-year, $495 
billion, 21st Century Clean Transportation plan on top of the 
FAST Act. It is paid for by a new $10.25 per barrel tax on 
crude oil and other unspecified business tax reforms.
    I am simply perplexed by the administration waiting to put 
forth this plan now when Congress debated and passed a 
multiyear transportation reauthorization, which the President 
signed into law, just 3 months ago. It is particularly 
astonishing that after ignoring Congress' repeated requests to 
engage in developing the necessary reforms to keep the Highway 
Trust Fund solvent, the administration has finally proposed a 
source of funding, though unrealistic, as it enters its final 
year.
    I just do not understand why this plan, which is a 
legitimate plan, even if it is not one that I think would pass, 
was not proposed last year in the midst of the negotiations on 
the FAST Act.
    For the Federal Aviation Administration (FAA), the request 
includes nearly $16 billion to support investments to keep our 
aviation system the safest and most efficient airspace in the 
world.
    I have serious reservations about the legislative proposal 
in the House of Representatives. It seeks to privatize air 
traffic control outside of the FAA largely under the control of 
the major airlines. The public, in my judgment, would not be 
well-served by exempting any part of the FAA from annual 
congressional oversight, which is necessary to ensure 
accountability, and a sustained focus on aviation safety.
    The United States has the busiest, most complex airspace in 
the entire world. Our Nation's air traffic controllers handle 
more than 50,000 flights a day and more than 700 million 
passengers each year. To liken our system to any other in the 
world is preposterous.
    Congressional oversight ensures that the FAA maintains a 
system that works across the aviation industry, including for 
general aviation and supporting small and rural communities. 
Rural States like Maine and other States represented by members 
on this committee benefit greatly from services that connect 
rural America with the larger transportation network.
    The Next Generation Air Transportation System (NextGen) is 
modernizing our air traffic control system, and it is happening 
today. Much of the backbone work for NextGen is finally 
complete. The FAA has safely reduced wake separation standards 
at 11 locations, and data comms departure clearance services 
are used at eight tower sites.
    As a result, we will see reduced flight delays. That will 
be very welcome by us who travel back and forth every week to 
our home States. And it will also lower fuel consumption.
    One of the most innovative DOT programs, which I have 
consistently advocated for, is the Transportation Investment 
Generating Economic Recovery (TIGER) program. I am very pleased 
to see that the Department and the administration continue to 
highlight the importance of this vital program.
    TIGER has some flexibility to fund a wide range of 
transportation projects that demonstrate national or regional 
significance to economic growth and job creation. In my home 
State of Maine, TIGER has supported vital bridge, port, and 
rail projects that otherwise might not have been built.
    I am also interested to hear more about the Department's 
implementation plan for the new freight and highway competitive 
program known as FASTLANE to address the critical freight 
issues facing our Nation's aging infrastructure.
    With regard to our rail network, I am deeply concerned by 
the number of rail accidents that have occurred over the past 
several years, including earlier this week. I know this is of 
great concern to Secretary Foxx as well.
    The Federal Railroad Administration's (FRA's) budget 
request highlights the need to ensure safe transportation of 
crude oil and other energy products across North America.
    Unfortunately, last year, several members of this committee 
experienced firsthand the importance of this issue due to 
freight derailments in their States. All of us who live near 
Quebec, Canada, will never forget the 2013 inferno caused by a 
runaway freight train that killed 47 people and decimated the 
downtown of a small Canadian community.
    Rail safety is a very important issue that this committee 
takes seriously, and I know the Department does as well. In 
recent years, we have provided funding for FRA to hire 
additional inspectors and safety personnel. Last year, we 
included funding to provide 33 additional safety personnel, as 
well as $50 million for new railroad safety grants. I look 
forward to hearing the Department's progress in hiring 
inspectors and its timeline for allocating these railroad 
safety grants.
    With this being the final year of this administration, I 
would also like to emphasize to the Secretary the importance of 
prioritizing the Department's regulatory agenda. There are many 
regulations working their way through the Department and the 
Office of Management and Budget (OMB). Priority should be given 
to regulations that are urgently needed and are required, 
indeed, mandated, by Congress. This is not the time to be 
issuing unnecessary, burdensome regulations in the midnight 
hours.
    Finally, as we all know, Washington, DC, is experiencing 
its own transportation crisis today as the DC Metro is shut 
down for emergency inspections of power cable systems. 
According to the new general manager, the shutdown is the 
result of a fire at McPherson Square station on Monday, which 
is similar to a fatal fire that occurred at L'Enfant Plaza just 
1 year ago.
    The unfortunate timing of the notification for the 29-hour 
shutdown as commuters were heading home last evening is having 
a severe impact on the Federal work force, on tourists who are 
visiting their Nation's capital, and on the DC local school 
system.
    Safety clearly must be the top priority for all transit 
agencies. While this was a very tough decision for Metro to 
make, it once again brings into question the reliability of the 
system and whether or not adequate oversight is being conducted 
in a system that it relied upon by so many daily commuters and 
tourists who visit the Washington, DC, area. I am sure that 
this issue will be brought up in questioning as well.
    [The statement follows:]
             Prepared Statement of Senator Susan M. Collins
    The subcommittee will come to order. Today, we welcome Secretary 
Foxx, who will testify on the President's fiscal year 2017 budget 
request for the Department of Transportation, as well as Inspector 
General Scovel who will discuss his office's budget request and the 
oversight and other work the OIG has been and will be conducting at the 
Department.
    I welcome both of you and look forward to hearing your testimony.
    The budget proposes $98 billion for the Department of 
Transportation in mandatory and discretionary spending for fiscal year 
2017. The Administration has asserted that the request abides by the 
bipartisan budget agreement Congress passed last year; however, this is 
simply not accurate. Instead of living within fiscal reality, the 
budget evades the budget caps by using the same old gimmicks we have 
seen in past proposals. By shifting programs from discretionary to 
mandatory, the President is able to show a 36 percent reduction in 
spending under the budget caps. At the same time, he takes credit for 
increasing DOT's overall budget by almost 30 percent. This undermines 
the essence of the budget agreement.
    I am also disappointed that just 3 months after Congress passed the 
FAST Act, the budget proposes an entirely new 10-year, $495 billion 
``21st Century Clean Transportation Plan'' on top of the FAST Act. It 
is paid for by a new $10.25 per barrel tax on crude oil and other 
unnamed business tax reforms. I am perplexed why the Administration 
waited to put forth this plan now when Congress debated and passed a 
multi-year transportation reauthorization, which the President signed 
into law, just 3 months ago.
    It is particularly astonishing that after ignoring Congress' 
repeated requests to engage with this Administration on developing the 
necessary reforms to keep the Highway Trust Fund solvent, the 
Department has finally proposed a source of funding, though 
unrealistic, as this Administration enters its final year.
    For the Federal Aviation Administration, the request includes 
nearly $16 billion to support investments to keep our aviation system 
the safest and most efficient airspace in the world. I have serious 
reservations about the legislative proposal in the House that seeks to 
privatize air traffic control outside of the F.A.A., largely under the 
control of the major airlines. The public would not be well served by 
exempting any part of the F.A.A. from annual Congressional oversight, 
which is necessary to ensure accountability for program performance and 
a sustained focus on aviation safety.
    The United States has the busiest, most complex airspace in the 
world. Our Nation's air traffic controllers handle more than 50,000 
flights a day and more than 700 million passengers each year. These men 
and women from all over the country are responsible for providing us 
with the safest and most efficient airspace in the world. To liken our 
system with any other in the world is preposterous.
    Congressional oversight ensures the F.A.A. maintains a system that 
works across the aviation industry, including general aviation and 
supporting small and rural communities. Rural States like Maine, and 
other States represented by Members on this committee, benefit greatly 
from services that connect rural America with the larger transportation 
network.
    NextGen is modernizing our air traffic control system, and it is 
happening today. Much of the backbone work for NextGen is finally 
complete. The F.A.A. has safely reduced wake separation standards at 11 
locations and Data Comm's departure clearance services are used at 
eight tower sites. As a result, we will see reduced flight delays and 
less fuel consumption.
    One of the most innovative DOT programs, which I have advocated for 
consistently, is the TIGER program. I am pleased to see the 
Administration continues to highlight the importance of this vital 
program. TIGER has the flexibility to fund a wide range of 
transportation projects that demonstrate national or regional 
significance to economic growth and job growth. In my home State of 
Maine, TIGER has supported vital bridge, port, and rail projects that 
might not have otherwise been built. I am also interested to hear more 
about the Department's implementation plan of the new Freight and 
Highway competitive program, known as FAST LANE, to address the 
critical freight issues facing our Nation's aging infrastructure.
    With regard to our rail network, I am deeply concerned by the 
number of train accidents that have occurred over the past several 
years, including earlier this week. The Federal Railroad 
Administration's budget request highlights the need to ensure the safe 
transportation of crude oil and other energy products across North 
America. Unfortunately, last year several members of this Committee 
experienced firsthand the importance of this issue due to freight 
derailments in their States. All of us who live near Quebec, Canada, 
will never forget the 2013 inferno caused by a runaway freight train 
that killed 47 and wiped out a community's downtown.
    Railroad safety is an important issue that this Committee takes 
very seriously. In recent years, we have provided funding for F.R.A. to 
hire additional inspectors and safety personnel. In fiscal year 2016, 
we included funding to provide 33 safety personnel as well as $50 
million for new Railroad Safety Grants. I look forward to hearing the 
Department's progress in hiring inspectors and the timeline for 
allocating the Railroad Safety Grants. I will once again be looking 
closely at how we can best target Federal funds to reduce accidents in 
both passenger and freight trains.
    With this being the final year of this Administration, I would like 
to emphasize to the Secretary the importance of prioritizing the 
Department's regulatory agenda in the months ahead. There are many 
regulations working their way through the Department and OMB. Priority 
should be given to regulations that are urgently needed and are 
required by Congress. This is not a time to be issuing unnecessary, 
burdensome regulations in the midnight hours.
    With that, let me call upon my colleague and friend Senator Reed, 
the ranking member.
    Senator Collins. With that, let me call upon my colleague 
and friend from Rhode Island, the subcommittee's distinguished 
ranking member, Senator Reed.

                     STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you, Madam Chairman, for your kind 
introduction and leadership.
    And thank you, Secretary Foxx. Welcome. You have led the 
Department with great energy and honesty, and we appreciate 
very much your efforts over the months you have been leading 
the Department.
    As you work through the last year of this administration, I 
want you to know that we all appreciate your leadership and the 
way you have worked with the subcommittee. So thank you again, 
Mr. Secretary.
    Once again, I hope we can convince you to come up to Rhode 
Island for a visit. In your earlier trips to Rhode Island, you 
saw how our transportation is essential to our State, just as 
it is to Maine and Maryland and Missouri and West Virginia and 
every other State in the country. You visited our Port of 
Davisville, which, once again, celebrated another record year 
handling automobiles, over 269,000 vehicles in 2015, a 
remarkable economic engine for the State.
    You have also helped us break ground on the T.F. Green 
runways for the new airport, so thank you very much. This 
project will be done in 2017. Indeed, two international 
airlines started service to Rhode Island because of the ongoing 
efforts. Thank you again.
    And we are also working with you to study intercity rail, 
which is a key aspect of our economy, as it is in so many other 
metropolitan areas in the United States. We want to maximize 
intermodal efficiency. We want our airports, our rail systems, 
and our bus systems all to operate together. These intermodal 
connections are absolutely critical as we go forward. Thank you 
for your interest and your personal involvement.
    There are, however, some potential difficulties facing the 
air traffic control system and airports in general. The 
chairman has pointed them out.
    As you know, the House of Representatives is considering a 
bill to privatize air traffic control. Giving away billions of 
dollars in Federal assets to a nonprofit corporation controlled 
by airlines without any congressional oversight is I believe an 
ill-conceived idea at best. And I do not think that 
privatization will offer a path to safer skies.
    I think it will, rather, stop NextGen investments in its 
tracks, increase costs to consumers, and cut services to small 
and rural commercial airports. I think it is a dangerous 
proposal that moves this country in the wrong direction.
    What this country does need is investment in our airports, 
bridges, roads, transit systems. Again, the chairman pointed 
out the Metro service interruption of 29 hours, another 
indication underscoring the need for investment in transit, 
railroads, ports, a host of facilities that need additional 
resource, additional effort.
    Deficiencies and underinvestment in our transportation 
system impact American lives in ways we feel every day. Once 
again, we feel it here in Washington today.
    We have not been keeping up with the demand. We have not 
made the necessary investment to keep pace with this demand. 
The FAST Act we passed last year is to start, but America needs 
more investment in infrastructure that produces more jobs and a 
safer, more efficient transportation system to move our economy 
forward.
    Our needs are great, as you well know. Roads and bridges 
throughout the country are crumbling and inadequate for the 
traffic they carry.
    Rhode Island's Route 610 connector, for example, is 
crumbling with patches upon patches barely holding it together. 
As the director of our Department of Transportation said, his 
agency has been in design or on replacement for more than 30 
years trying to deal with this problem. So this is not a recent 
development.
    Under the leadership of our Governor, Governor Raimondo, 
the State has a vision, not just about fixing the 610 connector 
but also making it safe, adding a bus rapid transit lane so we 
can have an increase in transit in the State along with 
highways. That is thinking ahead and thinking big, and it is 
worthy of Federal support. And I am going to ask you to 
consider that.
    Amtrak, which serves the Providence rail center, has a $7.3 
billion state of good repair backlog for the Northeast alone. 
Many of its assets are over a century old and need to be 
replaced. I support updating the entire corridor, including the 
Providence station, which is an important component to the 
overall system.
    As I mentioned before, the FAST Act has provided modest 
growth in transportation funding. But, unfortunately, the 
levels fall short of demand. I do want to applaud you for your 
advocacy leading up to reauthorization and for pushing us to do 
more. Thank you.
    Now it is your job to implement the law, and it is now our 
task on this subcommittee to make decisions about 
transportation funding for fiscal year 2017. Your request 
includes FAST Act, level funding for service programs as well 
as the new 21st Century Clean Transportation plan.
    It is a bold proposal, and I appreciate the administration 
looking forward with big investments. It shows the world of 
possibilities on what we could achieve with the right vision.
    For example, the administration's request includes $1.25 
billion for the TIGER program, which is in extremely high 
demand and is a linchpin in making innovative projects happen 
all across this country; $15.9 billion for the FAA, which fully 
funds air traffic controller work force and provides $1 billion 
for NextGen programs; $2.3 billion for Amtrak current service; 
and $3.7 billion for improving rail service nationwide. Again, 
critical.
    And as I mentioned, we are looking very closely in Rhode 
Island at integrating all the services at T.F. Green Airport 
and also at the Pawtucket and Central Falls locations. These 
funds would help expand service not only in Rhode Island but 
many other parts of the country.
    $1.2 billion for the National Highway Traffic Safety 
Administration, which will allow the agency to improve vehicle 
safety defect investigations. $3.5 billion for FTA's capital 
investment grant program, which has seen a 70-percent growth in 
projects since fiscal year 2013.
    These programs all rely on discretionary resources provided 
in the transportation, housing and urban development bill and 
they all save lives, create jobs, and grow the economy.
    I know we will be unable to meet many of these goals due to 
budget constraints, but I know that you make your request based 
on the real needs you see and hear about each day. Congress 
needs to hear about these needs.
    Again, Secretary Foxx, thank you for your service. I look 
forward to your testimony.
    And thank you, Madam Chairman.
    Senator Collins. Thank you very much, Senator Reed.
    Normally, we would now turn to the Secretary's opening 
statement, but Senator Mikulski, I know that your constituents 
have been most affected by the Metro, so I wanted to give you 
an opportunity.
    Senator Mikulski. I will do it in the question round.
    Senator Collins. That sounds great. Thank you.
    Senator Foxx--Secretary Foxx. I do not know whether that 
was a promotion or demotion.
    [Laughter.]
    Senator Collins. These days, it is hard to tell.

                 SUMMARY STATEMENT OF HON. ANTHONY FOXX

    Secretary Foxx. Madam Chairman, thank you so much. And I 
want to thank the members of the committee, Ranking Member 
Reed, and the ranking member of the full committee, Senator 
Mikulski. Thank you all very much. I want to thank you for the 
opportunity to meet with you today to discuss the President's 
2017 fiscal year proposal for the Department of Transportation.
    At the outset, however, I want to begin my statement today 
by discussing the suspension of operations by Washington's 
Metrorail system. This service suspension has not only been 
disruptive to the local Washington, DC, community, but to the 
operations of the Federal Government. Ranking Member Mikulski 
has been a leader in the effort to get this system in shape, 
and she and I have worked together on this issue, despite many 
shared frustrations with the Washington Metropolitan Area 
Transit Authority (WMATA).
    Earlier this year, the Federal Transit Administration (FTA) 
determined that the safety oversight entity that DC, Maryland, 
and Virginia had created was a failure. We then informed the 
three jurisdictions that we will temporarily assume safety 
oversight duties while they set up a new, stronger, permanent 
safety oversight entity.
    Frankly, the three jurisdictions have not yet acted on 
their responsibility, and I have made that point abundantly 
clear in recent months and will continue to until that work is 
done.
    However, all of us still need to roll up our sleeves and 
help WMATA help itself.
    WMATA has hundreds of millions of unspent balances and open 
grants. I am directing the FTA to evaluate the status of these 
funds and prioritize their direction to safety wherever 
possible.
    Also, as work proceeds on the jumper cable issue, the FTA 
will conduct a safety inspection blitz starting next week on 
three other critical areas that we have identified as serious 
problems for Metro: red light running, use of emergency brakes, 
and track integrity. This builds on inspections that have been 
conducted over the last several months.
    Every year since I have been Secretary, I have urged 
Congress to pass a long-term surface transportation bill. 
Today, I have come in part to thank Congress for passing a 
bipartisan bill last year, the FAST Act, which has done a lot 
to remove the cloud of uncertainty hanging over our surface 
system for the better part of a decade.
    Today, I ask you to join the Obama administration as we 
seek to build on the FAST Act with an even more robust 21st 
century-focused plan to win the future.
    For fiscal year 2017, the President's plan includes $98 
billion in transportation investments, a significant increase 
over the FAST Act levels to support advancements in safety, 
repairing and replacing infrastructure, and driving forward 
innovation and emerging technologies that can help us move 
faster, more efficiently, and safer in the future.
    The President's budget recognizes that neither our current 
patchwork funding approach nor the rigid and antiquated 
distribution of transportation dollars through formulas is 
going to put our Nation's infrastructure in the best possible 
position for our kids and grandkids. As the long and tortured 
debate about how to put together a surface transportation bill 
has shown, our transportation bills are no longer layups.
    If we work hard now, it will save stress when the FAST Act 
expires. While the FAST Act helps, we are still playing catch-
up, and the same demographic and economic pressures are coming.
    Our future challenges, as our report Beyond Traffic tells 
us, will get even worse tomorrow than they are today; 70 
million more people by 2045, creating even more demand on our 
transportation system; freight volumes increasing by 45 
percent; 65 percent more trucks on the road; and more of the 
population concentrated in what social scientists and other 
observers called mega-regions.
    In short, our funding and funding distribution models for 
America's transportation are rearview mirrors, and the massive 
demographic and economic pressures are our front windshield.
    With the FAST Act's passage, Congress should rethink our 
strategy, and the President's budget offers a pathway for the 
future. Specifically, the President's request proposes a new 
clean transportation plan. This plan not only increases 
spending on infrastructure, it also looks to spend the money 
smarter, pushing it to the local and regional levels where 
system integration is most needed and projects can be built 
much faster.
    That is why the President recommends a series of 
innovative, new grant programs that advance a 21st century 
approach with an annual average budget of $10 billion over the 
life of the plan. Also included is a nearly $20 billion 
allocation for transit to address fast-growing needs, $6 
billion a year for high-performance rail, and finally a clean 
transportation plan that will help us prepare for the future by 
providing nearly $4 billion over 10 years to research the 
integration of new technologies in transportation, including 
autonomous vehicles.
    Some have already spoken to the allocation for NextGen and 
for FAA. This funding will enable the FAA to continue 
operations at current funding levels while maintaining its 
focus on aviation safety.
    With that, I want to thank you, Madam Chairman, for 
allowing me to present the President's budget request to you. I 
look forward to your questions, and I again thank the 
committee.
    [The statement follows:]
                Prepared Statement of Hon. Anthony Foxx
                              introduction
    Chairman Collins, Ranking Member Reed, and members of the 
Subcommittee, I want to thank you for the opportunity to meet with you 
today to discuss the President's fiscal year 2017 budget plan for the 
Department of Transportation. The President's request totals $98.1 
billion in resources that will support the Department's top priority, 
safety. This plan is focused on the future with high impact investments 
in the safe integration of emerging technologies, such as autonomous 
vehicles and unmanned aircraft systems (UAS). It supports improvements 
that have the potential to transform transportation systems, save 
lives, and reduce carbon emissions. The President's Budget charts a 
path towards fundamental changes in the way the government balances and 
integrates transportation options in planning for the future.
                    enhancing surface transportation
    The surface transportation investments in the President's fiscal 
year 2017 Budget build on the recently enacted Fixing America's Surface 
Transportation (FAST) Act, which President Obama signed into law on 
December 4, 2015. The FAST Act is an important down-payment for 
building 21st Century surface transportation systems. It includes a 
series of important changes, to improve the efficiency of permitting 
and project delivery, including a number of provisions fostering 
ladders of opportunity, establishes new freight-focused funding 
programs, and makes changes to a number of the Department's safety 
programs. These changes include creating a new grant program and 
enhancing authority with respect to recalls, civil penalties, and the 
collection of safety data.
    However, the FAST Act largely maintains current programs--including 
the traditional funding and program distribution between highway and 
transit funding, with limited support for multimodal plans and 
projects. While the FAST Act included authorization for rail programs, 
rail funding will continue to be determined on an annual basis, without 
the certainty provided by the multi-year trust fund structure that 
currently supports highway and some transit programs.
    Thus, the fiscal year 2017 Budget builds on the FAST Act, taking 
the next steps to reform funding streams and encourage better planning 
and projects at the State and regional levels through increased 
investment in areas such as rail and transit. It also includes a series 
of new, multimodal programs that increasingly cut across traditional 
siloes, in support of more comprehensive regional strategies that 
connect communities and support climate and greenhouse gas reduction 
goals.
    To address these concerns, the President's request directs 
investments over a 10--year period towards a 21st Century Clean 
Transportation Plan that reflect America's changing demographics and 
economy, while at the same time providing access to opportunity.
  --As more Americans move to cities, regions, and megaregions, it is 
        time for us to reassess how we plan for and use our limited 
        transportation dollars.
  --At the same time, this Clean Transportation Plan recognizes the 
        impact today's transportation systems have on climate change 
        and the environment and seeks to build incentives that will 
        encourage new, cleaner forms of transportation and better land 
        use planning.
  --This plan also acknowledges the important role that innovation and 
        technology play in keeping transportation safe, reliable, and 
        efficient by requesting funds for programs such as a new 
        autonomous vehicle deployment pilot that will yield important 
        benefits.
    Overall, the President's Budget request represents a combination of 
these proposed 21st Century Plan investments and funding for the 
Department's traditional transportation programs. Key elements of the 
request include the following:
 investing in clean, 21st century surface transportation options that 
     reflect america's changing demographics and provide access to 
                              opportunity
    Enhances Clean Transportation Options for American Families.--Over 
the next decade, the Budget invests an average of nearly $20 billion 
per year in new investments to reduce greenhouse gas emissions and 
provide new ways for families to get to work, to school, and to the 
store. The Budget would expand transit systems in cities, fast-growing 
suburbs, and rural areas; make high-speed rail a viable alternative to 
flying in major regional corridors; modernize our freight system; and 
expand the successful Transportation Investment Generating Economic 
Recovery (TIGER) program to support high-impact, innovative local 
projects.
    Supports Investment Decisions Towards a ``21st Century Regions'' 
Approach That Reflects a Changing Demographics and Economy.--Currently, 
the majority of Federal transportation funding flows, via formula, 
through the State. To address the shifting demographics in America, 
this Budget balances that funding stream, by directing billions of 
dollars through regional governments, such as Metropolitan Planning 
Organizations, empowering them to play a stronger role in 
decisionmaking. Over a 10-year period, the Budget invests an average of 
$10 billion a year towards a series of new, innovative multimodal 
programs that improve the balance of funding and decisionmaking and 
will accelerate the move towards smarter, cleaner, and more integrated 
communities. The funding would flow across transportation modes to 
support transit-oriented development; reconnect downtowns divided by 
freeways; and, bicycle and pedestrian networks.
    The President's Budget fully supports FAST-authorized funding 
levels for surface transportation programs, aimed at keeping the system 
safe and in a state of good repair. In addition to the proposed 
increases for surface programs, the Budget fully funds FAST Act levels 
for fiscal year 2017, across transportation modes which include: $44 
billion to invest in the Nation's critical highway and bridge systems; 
nearly $10 billion to support operations of public transit systems 
across the Nation; roughly $730 million for the National Highway 
Traffic Safety Administration (NHTSA) to research and develop new, 
life-saving technologies and programs; and over $640 million to support 
nationwide motor carrier safety through the Federal Motor Carrier 
Safety Administration (FMCSA).
  advances public and private sector collaboration to accelerate cost-
  competitive, low-carbon technologies and intelligent transportation 
                                systems
    Continues the Transition to the Next Generation Air Transportation 
System (NextGen).--The Budget requests a total of $1 billion to support 
NextGen. This includes $877 million for NextGen Capital investments, an 
increase of $22 million above fiscal year 2016, which will advance 
modernization efforts; enhance automation; implement satellite-based 
surveillance capabilities; improve data communication practices and 
technology; and maximize traffic flow.
    Funds Pilot Deployments of Safe and Climate-Smart Autonomous 
Vehicles to Create Better, Faster, Cleaner Urban and Corridor 
Transportation Networks.--To accelerate the development and adoption of 
autonomous vehicles, the Budget includes $3.9 billion over 10-years for 
large-scale deployment pilots to develop a common multistate 
interoperability framework for connected and autonomous vehicles.
 ensures transportation safety keeps pace with changing technology and 
                          organizational needs
    Integrates Surface Transportation Technologies Safely Into the 
Transportation System.--High impact investments will support activities 
such as NHTSA's New Car Assessment Program (NCAP), to test vehicle 
safety through state-of-the-art equipment and more realistic crash 
dummies. The Budget invests $35 million in fiscal year 2017 for this 
integration.
    Strengthens Regulatory Enforcement Agencies Across the Department 
Through Resources and Organizational Changes.--Across the Department, 
agencies are taking action to strengthen the regulatory and enforcement 
capabilities that are key to protecting the safety of travelers and 
movement of goods.
  --Investments would provide over $47 million for NHTSA's Office of 
        Defects Investigation to improve its effectiveness in 
        identifying safety defects quickly, ensuring remedies are 
        implemented promptly, and notifying the public of critical 
        defects.
  --The Budget's $295 million request for the Pipeline and Hazardous 
        Materials Safety Administration (PHMSA) also includes proposed 
        organizational changes to elevate the role of research and 
        analysis in support of regulatory development and enforcement.
    Supports Rail Safety Through Research and Development and 
Implementation of Positive Train Control (PTC).--The Budget includes 
$213 million to support the Federal Railroad Administration's (FRA's) 
rail safety and development programs, including implementation and 
enforcement of PTC, as well as related track and bridge safety 
activities, and another $53 million for additional safety research. 
This includes $12.5 million to analyze and demonstrate the safety and 
environmental benefits of Electronically Controlled Pneumatic brakes.
    Protects Our Maritime Interests.--The Budget provides over $428 
million for the Maritime Administration to implement programs that 
promote the economic competitiveness, efficiency, and productivity of 
U.S. Maritime transportation.
        invests in 21st century government and project delivery
    Modernizes Permitting and Project Delivery.--The Budget supports 
investments, consistent with new requirements in the FAST Act that 
ensure we are making 21st Century investments through 21st Century 
delivery mechanisms. The Budget expands the Administration's progress 
to expedite permitting and approval processes while protecting safety 
and the environment.
    Supports Ongoing Establishment of a National Surface Transportation 
and Innovative Finance Bureau.--Building on the Administration's 
successful Build America Investment Initiative, the FAST Act created a 
new office to streamline and improve the application processes for 
credit programs, expedite project delivery, and promote innovative 
financing best practices. The Budget requests resources for 
implementation, as well as $275 million for the Transportation 
Infrastructure Finance and Innovation Act (TIFIA) Program, along with 
flexibility to also use resources from a range of new multi-modal 
programs to cover credit subsidy costs.
    Protects Cybersecurity and Data Integrity.--The Budget includes $15 
million to continue improvements to the Department's cybersecurity 
protections, and another $4 million to assist the Department in meeting 
the requirements of the Digital Accountability and Transparency Act of 
2014.
    When taken together all of these new initiatives support our 
expanding freight network, and address the ongoing need for 
improvements in the transportation options that support ladders of 
opportunity for all Americans.
                preparing for reauthorization of the faa
    Planning for the Future of the FAA.--The President's fiscal year 
2017 Budget request includes a total of $15.9 billion to support the 
ongoing work of the Federal Aviation Administration (FAA). This funding 
level would provide the FAA with ``steady-state'' funding overall when 
compared with fiscal year 2016 levels. The FAA's authorization is set 
to expire on March 31, 2016. As new legislative proposals are offered 
and considered, the President's budget continues to propose expanded 
funding flexibilities that would help FAA manage its resources in a 
more efficient and effective way.
    Thank you again, for the opportunity to appear before you today and 
I will be happy to answer your questions.

    Senator Collins. Thank you very much, Mr. Secretary.
    We are going to start the questioning with the ranking 
member of the full committee, Senator Mikulski, in light of the 
fact that her constituents more than any of ours have been 
adversely affected by the shutdown of the Metro system.
    Senator Mikulski.
    Senator Mikulski. Thank you, Madam Chair, for once again 
your usual sensitivity and courtesy, something very much needed 
in the body politic, and the vice chair of the committee, 
Senator Reed.
    Secretary Foxx, it is good to see you again. I want to 
commend you and your professional staff for the outstanding job 
that you do. You are a very hands-on administrator and your 
staff takes their job very seriously. We in Maryland are very 
happy and proud of our assets, whether it is the Port of 
Baltimore, the airport, the MARC commuter rail, or the Purple 
Line.
    But today, we have heartburn once again over the Washington 
Metro. Seven-hundred-thousand people ride the Metro every day, 
700,000 people. Some older senior citizens. Many work age going 
to work here at the Capitol and in the great District of 
Columbia. Some are schoolchildren coming to school here in our 
community, and they count on a system that is safe, reliable, 
and they can count on.
    Well, you know what happened. Paul Wiedefeld shut down the 
system today. It was drastic. It was disruptive. And yet I 
believe it was necessary.
    We are deeply concerned about this. I am no Janie-come-
lately to this. Going back to 2009 when on June 7 nine people 
died when two Metro trains collided, we have been working to 
change the governance, improve the management, and bring more 
resources.
    From 2009 to 2016, we have had seven incidents of tragedy. 
We have had 15 deaths, nine rider deaths, and six Metro deaths. 
Some happened at Metro itself. Right after the terrible June 9 
crash in August, we had a Metro employee die in Silver Spring. 
He was hit by the maintenance equipment.
    I will not go through every incident, but here we are, 
2010, Metro employee struck by a maintenance truck. Shady 
Grove, the carwash fell on an employee who lost limbs. So it is 
at Metro that many of these accidents occur to Metro employees.
    Then, of course, not too long ago, we had the terrible fire 
at L'Enfant Plaza where one person died, but 80 nearly died of 
smoke inhalation. They could not get out. Thank God for the 
District of Columbia first responders who literally moved 
heaven and Earth to get there to help them out.
    So where are we today? We have tried to change the 
management structure. We have tried to improve the governance. 
You have been a big part of that, where you could appoint the 
board. And we have tried to increase money.
    This subcommittee has put over $1 billion into Metro every 
year. It helps us buy new crash-worthy cars.
    So my constituents and those in the District of Columbia 
and Virginia say, well, we will tough it out for 1 day, but is 
this change going to be reliable? Is it going to be 
sustainable? Is it going to stick?
    For months and years now, we have called for a culture of 
safety. But what we get is a culture of resistance to making 
changes for safety.
    So my question to you, as someone who is really involved 
himself, and you have run into the buzz saw of resistance just 
the way I have, and the way Ben Cardin and Mark Warner and Tim 
Kaine have, and Senator John Warner when he was here, so my 
question to you is, what more can the Federal Government do to 
help? What more should we in Congress do? Do we need more 
money? Do we need more authority? What kind of change? Because 
what we need is a Metro that really works, and in a way that 
people have confidence that when they get on, they will get off 
and they will be okay.
    I also worry about the workers who themselves have often 
been hurt or injured.
    What could you share with us today where we can make a 
change, where what you can do to help Wiedefeld get this 
literally on track, and a track that gets people where they 
need to go?
    Secretary Foxx. Senator, first of all, I want to thank you 
for what I would call your ferocious advocacy on behalf of 
safety and on behalf of the workers and users of the system.
    What I would say is that the coalition of the willing here 
has to involve the jurisdictions themselves, and it has to 
involve all stakeholders who have decisionmaking authority over 
WMATA. For months, for months, I have called on the 
jurisdictions to stand up an effective State safety oversight 
organization.
    We took over State safety oversight temporarily to give 
them time to get it stood up correctly, and yet we have no 
concrete movement on the part of these jurisdictions.
    That would be a good start. All of us, those jurisdictions, 
Congress, our Department, the board of directors, and the 
leadership of the organization itself, Mr. Wiedefeld and his 
team, have to have relentless focus on safety.
    I am prepared to do more. I have already said that we are 
going to look at open grants that WMATA has available and look 
at directing those to safety-enhancing investments.
    But I really think this is a place where WMATA is going to 
have to run itself in a safe fashion. The culture down there 
has got to change. And we cannot enable the continuation of 
these safety failures any longer.
    Senator Mikulski. Well, first of all, thank you.
    Second, I also want to say that we are not going to take 
the whole hearing today, and the leadership of the committee 
has been very generous to me this morning.
    The Senators from Maryland to Virginia intend to hold an 
oversight meeting with Mr. Wiedefeld and other people who could 
help solve this problem as soon as we get back from our spring 
work period.
    But are you telling me that Metro has unspent money that 
they could be using right now for safety? Why is it unspent? 
What do you think it could buy?
    Secretary Foxx. Well, we have the authority to direct that 
they use those monies to focus on their safety priorities. Some 
of these dollars were appropriated or provided to them in past 
years for any number of things. I have the FTA team looking at 
whether any of these funds are constrained by contracts that 
WMATA may have.
    But rest assured, we are going to make sure that resources 
are not the issue. But I think the point that I am trying to 
make is, I do not think it is just resources. I think it is 
culture, and I think it is a deliberate decision that is needed 
on the part of everyone involved in this to focus relentlessly 
on safety and get things right. We are digging ourselves out of 
a hole.
    Senator Mikulski. I know my time is up, but what you are 
saying is there has to be an insistence and persistence, not 
only from you, not only for me, but from the leaders of the 
jurisdictions whose constituents themselves ride it.
    We have to look at not only the money but the consistently 
run red lights, and we had to make sure the tracks are rider-
worthy, and then this whole issue. But the running of the red 
lights really is a fearsome issue.
    Let's follow up in another meeting. I appreciate the fact 
that we have a beginning framework here.
    Thank you very much, Madam Chair and Senator Reed.
    Senator Collins. Thank you, Senator.

                          AUTONOMOUS VEHICLES

    Mr. Secretary, I am very interested in the development of 
driverless cars, so-called autonomous vehicles, which could 
provide a substantial improvement to our transportation 
network, particularly by giving more options to seniors who are 
living in rural areas where there is not mass transit of any 
kind.
    The key benefit, however, is in reducing the number of 
crashes and fatalities that occur every year due to human 
error. While fully autonomous vehicles may be years away, there 
are tools such as collision avoidance, lane deviation, 
electronic stability control, that can help reduce crashes in 
the near term.
    The National Highway Traffic Safety Administration (NHTSA) 
has traditionally provided the testing regime and standards-
setting for such new safety technologies.
    The budget request includes a new $4 billion request for 
over 10 years for large-scale deployment pilots to test 
autonomous vehicles in designated corridors. This appears to be 
an entirely new role for the Department, and there are no 
details in the budget on how this large amount of funding would 
be used.
    What is the plan? Is the budget potentially duplicative of 
private sector efforts already underway to deploy these 
vehicles in real-world driving situations?
    Secretary Foxx. Thank you for the question. You are correct 
that the proposal is $4 billion over 10 years for pilot 
programs.
    We also agree with you that the automated technologies have 
enormous potential for safety benefits. And to accelerate those 
benefits, we are proposing to invest these resources in support 
of real-world testing. Now there is private-sector testing that 
is currently being engaged in, but we believe that the 
Government has an interest in understanding further things like 
whether national policy should focus on licensing, what sorts 
of testing is reliable, information-sharing among States and 
the Federal Government, and to what extent we can build on 
those systems.
    We have actually already speeded up the deployment of these 
systems through regulations, including the New Car Assessment 
Program (NCAP), which is beginning to require or at least 
encourage some of these technologies as you talked about, some 
of the automated types of systems to come into the vehicle as 
part of the grading system for NCAP.
    Having said that, we believe it is beneficial for the 
private sector to test, just as the public sector tests. And 
many of these tests will be done in conjunction with the 
private sector.

                             SPEED LIMITERS

    Senator Collins. Thank you. Last year, Mr. Secretary, I 
asked you about the status of the Department's proposed 
rulemaking on speed limiters or Governors, as they are also 
known. You stated at that hearing that the rule would be out 
``no later than the fall.'' Here we are in our hearing a year 
later and well-beyond last fall and the Department has yet to 
issue its rulemaking.
    I am puzzled by this because this is a rule that will help 
to reduce highway fatalities. It has the support of the 
trucking industry. It has the support of various safety 
advocates.
    Why has there been a delay in this rulemaking?
    Secretary Foxx. So subsequent to our hearing last year, OMB 
did accept the heavy truck speed limit, or Notice of Proposed 
Rulemaking (NPRM), on May 18, 2015, as a top priority. We have 
been working closely with OMB to get that rule pushed out.
    Based on our current estimates, we expect the rule to be 
completed by April 22, 2016. So within the next month or so.
    Senator Collins. Thank you. I will hold you to that.
    Senator Reed.

                    AIR TRAFFIC CONTROLLER STAFFING

    Senator Reed. Thank you very much, Madam Chairman.
    We spoke about air traffic controllers previously in our 
statements regarding this proposed privatization. I think it 
should clear where both the chair and I stand on that one. But 
there is another issue and that is there is a significant 
number of controllers who are eligible to retire at FAA 
facilities. In fact, it looks like there are more potential 
retirees than there are individuals in the pipeline prepared to 
come aboard.
    So what are you doing to ensure that there is no gap, that 
we have an adequate number of controllers?
    Secretary Foxx. I can get you the statistics, Senator, but 
in short, we have annual hiring goals for air traffic 
controllers, and we are currently at about 54 percent of our 
hiring goal for the current year and still going. We feel very 
comfortable that we will meet that target this year.
    You are correct that we do have an aging work force, and we 
are working to onboard new air traffic controllers and move 
them through our systems as quickly as possible so that we can 
stay ahead of that attrition.
    In addition to the hiring goals, we are also looking at two 
other aspects of the process. One is getting folks to the FAA 
Academy or equivalent training as quickly as possible from the 
time they get onboarded. And secondly, we are actually looking 
at some of our testing programs to ensure that those are 
calibrated to get us the best possible air traffic controllers.
    Senator Reed. A follow-on question, the inspector general 
has raised concerns that when you are looking at your work 
force, you are looking at historical trends and not specific 
and critical facilities.
    What are you and the FAA doing to better factor in 
facility-specific air traffic so that you might have the right 
number, but they are just not properly located?
    Secretary Foxx. I would like to take that back to the FAA 
and give you a more complete answer. But what I would say is 
that our airspace remains fairly dynamic. We know where a lot 
of their traffic is, but we also have some modeling that helps 
us predict where we think it is going to get more intense over 
time.
    I fully expect that our answer will reflect our projections 
going forward, and our response to that. But I would like to 
give a sharper answer from FAA.

                         NEXTGEN MODERNIZATION

    Senator Reed. Thank you very much, Mr. Secretary.
    On a related issue, an FAA issue, the inspector general 
issued a report in January with some criticism regarding the 
management of NextGen modernization efforts. It was a rather 
long sweep in terms of the beginning of the program until 
today.
    But can you fill us in on some of the reforms and the pace 
of reforms in this administration under your leadership?
    Secretary Foxx. Sure. I will be honest, I cannot take full 
credit for what I am about to say. There have been a lot of 
people who have been working on this in this administration.
    But effectively, what the FAA has done in this 
administration is rebaseline NextGen. There was a certain 
critical path for the project. It was way off scale prior to 
the administration. We have since right-sized that critical 
path. And we are meeting our targets even notwithstanding some 
of the budget shockwaves we have experienced in past years.
    Some of the deliverables are the rolling out of metroplexes 
across the country; some of the flight enhancements like 
optimized profile descents, which are saving millions of 
dollars and tons of gasoline as planes land in our airspace; 
the development of ERAM; as well as the rollout of data comm, 
which will be coming on board over the next year or two.
    So we feel good that we're starting to get capabilities out 
there. I think one of the big risks for NextGen is getting 
equipage in the cockpit of airplanes across the country, 
including general aviation, and we look forward to working with 
you and others to get that done.
    Senator Reed. Thank you very much, Mr. Secretary.
    Thank you, Madam Chairman.
    Senator Collins. Senator Capito.

                     AIRPORT RECONSTRUCTION PROJECT

    Senator Capito. Thank you, Madam Chair.
    I want to thank the Secretary for being here with us today. 
I read your interview in the New York Times business section 
last Sunday. I really appreciated learning a little bit about 
your history. The tributes that you paid to your parents, in 
terms of your education, I thought were very inspiring for the 
next generation, so thank you for doing that.
    I have a localized question here. I am from West Virginia. 
As you are aware, a landslide at Yeager Airport in Charleston 
forced the evacuation of several people and destroyed the 
Keystone Apostolic Church. It was the engineered materials 
arrestor system (EMAS) that collapsed, because our airport is 
built on top of three different mountains. Thankfully, nobody 
was injured.
    There have been a lot of entities, including the FAA, that 
have been trying to do the repair work. We have also been 
working with FEMA and the West Virginia Division of Highways. 
The FAA provided the initial investment for the EMAS system, 
which prevents planes from going over the side of the airport 
down the hill.
    I believe that the FAA should help us play a role in 
rebuilding a new one. We need a new one. This is a very 
important project for basic safety, but also, I have learned, 
will play into what types of aircraft will land or be permitted 
to land in the Yeager Airport, which obviously has great 
circumstances.
    I know there is litigation pending on this matter, but I 
would like to get a sense from you any thoughts or perspectives 
you might have where the FAA could be more helpful to us and to 
the local community to try to rebuild the system.
    Secretary Foxx. Obviously, first of all, I want to tell you 
thank you on behalf of my family, for your comments. That was 
very nice of you.
    Secondly, to acknowledge that the collapse of the runway 
safety area at Yeager Airport is a very complex issue. The FAA 
continues to work with the airport. As they do that, I look 
forward to giving you updates on how that conversation is 
going. But I want the FAA to be helpful to you. I want the FAA 
to be helpful to the community in getting that service back up 
and running.
    Senator Capito. Thank you. Hopefully, we can have 
subsequent conversations. The rebuild on that is estimated to 
cost between $25 million and $35 million. That is a lot for a 
county airport to be able to sustain.
    I want to ask you about the Transportation Infrastructure 
Finance and Innovation Act (TIFIA) appropriation that you have 
in the budget and the development of the National Surface 
Transportation and Innovative Finance Bureau. In our State, we 
have really used these public-private partnerships to make our 
money go farther and complete some highways. I am curious to 
know, I noticed you asking for $3 million in new resources for 
this implementation, so I am going to assume that this finance 
bureau has not been implemented yet. Is that correct?
    Secretary Foxx. We are in the process of standing it up. We 
have some efforts underway to figure out which programs need to 
be consolidated and how to set up the staffing mechanisms. But 
I expect that by the time the year ends, we will have this 
organization stood up.
    I think the goal is to have enough personnel and resources 
to make sure that it is delivering what you need in West 
Virginia.

                       PASSENGER FACILITY CHARGES

    Senator Capito. Yes, I think every State is trying to 
maximize resources. Certainly, what has worked for us is to 
have the private company do the forward financing and then have 
a steady stream paying back, because if you can get them done 
sooner, they are cheaper--or less expensive. Nothing is cheap, 
but less expensive.
    As I was reading through your report, I noticed an issue 
about the ability to increase the pass-through facility charge 
limit. I guess that is a fee on every airline ticket from $4.50 
to $8. Again, living in a rural area, smaller airports, what 
caused my concern was it would eliminate guaranteed Airport 
Improvement Program (AIP) entitlement funding for large hub 
airports. I do not know what that would do to a small or 
medium-sized airport. Who gets the flexibility to raise that? 
The local airport?
    Secretary Foxx. So it would be local airports, but really 
the largest airports in the country, the rural airports, the 
smaller and medium-sized airports, would be held harmless. They 
would not have any change in their AIP grant access. But the 
larger airports would not have access to AIP, but they would 
have access to their own passenger facility charge (PFC) 
increases.
    Senator Capito. What happens in smaller and more rural 
airports that have commercial services? It is so expensive. I 
mean, for me to fly back to West Virginia an hour, to 
Charleston, West Virginia, the capital city, sometimes your 
airline ticket can be $700 and $800 for a round-trip ticket. 
That is just preposterous.
    So even though it is a small change, is just put prices 
even further and further out of the market. That is my concern 
on that.
    But anyway, I thank you again. Thanks for your service, and 
we will follow up about Yeager and see what kind of help we can 
get from you and from the FAA.
    Secretary Foxx. I look forward to working with you.
    Senator Capito. Thank you.
    Senator Collins. Thank you.
    Senator Coons.

             AMTRAK INVESTMENTS AND POSITIVE TRAIN CONTROL

    Senator Coons. Thank you, Senator Collins.
    Thank you, Mr. Secretary, for your service and your 
leadership.
    As other Senators have commented, today's emergency 
shutdown of the DC Metro system was a big surprise, and for 
many an inconvenience. But as someone who rides Amtrak rail 
every day, I know what a priority safety has to be regardless 
of the transportation mode. So I appreciate your engagement and 
diligence in ensuring that we put passenger safety first.
    Let me start by thanking you for your leadership, your 
focus, your staff's terrific work in responding to the I-495 
challenge that we had in my home community of Delaware. DOT's 
support on the emergency relief funding and your ability and 
willingness to work well together, Federal and State agencies, 
in a compressed timeframe to fix a critical infrastructure 
problem for us was greatly appreciated.
    I just attended the groundbreaking of an expanded Route 301 
through Delaware with the Federal Highway Administration (FHWA) 
administrator, Greg Nadeau. It was only possible because of 
TIFIA financing.
    I know Senator Collins and others have spoken about the 
value of TIFIA financing, but I just want to add my voice. It 
makes possible projects like this. Mayor Branner of Middletown 
has been working on it for, I think, 30 years, so it is a long 
hoped for investment.
    Amtrak is of critical importance to my State, not just to 
me. Like the Vice President, I think I have spent more time on 
Amtrak than with my family during my time in the Senate. I am 
pleased the President continues to be a strong advocate and 
supporter.
    As Senator Reed mentioned, there is a $7.3 billion backlog 
in State of Good Repair in the Northeast Corridor alone. While 
the FAST Act makes important progress in providing 
authorization, I am really concerned about the sufficiency of 
funding.
    So tell me, if you would, what the positive train control 
(PTC) investments in your budget do for Amtrak and what you see 
as the prospects for sustaining investment in Amtrak and 
improving its State of Good Repair.
    Secretary Foxx. So in terms of how far dollars would go 
specifically for Amtrak, we do not exactly have a number on 
that, in terms of how far our investments would go because that 
is sort of an Amtrak question in terms of how they would 
invest. But our budget actually contains $1.3 billion for PTC. 
That, of course, is part of our desire to ensure that we are 
getting that system deployed as quickly as possible.
    Senator Coons. I support the increased request for Amtrak, 
and I am hopeful that we will be able to sustain that over 
time.
    Delaware actually happens to be one of the deadliest States 
in America for pedestrians, unfortunately. Tragically, it was 
number one in the country--this is on a per capita basis, 
obviously--in 2012, 2013, and number three in 2014 and 2015. 
The Federal Highway Administration (FHWA) has done some great 
research and funded some projects on how to deal with this.
    But for us, it is really a suburban problem, not an urban 
problem. It is a challenge of high-speed, multi-laned suburban 
commercial corridors.
    Can I help start a dialogue between your office, DelDOT, 
and advocacy groups about this issue and future research?
    Secretary Foxx. Absolutely.
    Senator Coons. I would be grateful for a chance to work 
with you on that.
    Funding and continuation, as I mentioned, of the TIGER 
program is absolutely instrumental in advancing rail projects 
in the Northeast Corridor (NEC). And improving the NEC is the 
only way we can ensure our ability to add more commuter rail 
frequencies to all Delaware stations, including access to MARC 
service from Maryland.
    I would be interested in your view on whether you think 
TIGER programs will continue to be reviewed and approved on a 
timely basis.
    Secretary Foxx. Yes. We understand how important the TIGER 
program is. We quite frankly appreciate this committee's just 
incredible support for the program. You can rest assured that 
we are going to work hard to review and move those dollars out, 
so they can get people to work and do the good things that 
TIGER grants do.
    Senator Coons. It has made possible that Delaware third 
track project, in part. There are some critical chokepoints 
south of Wilmington, but there are another two north of 
Wilmington, so it is my hope we can continue to work on that.
    I am also encouraged by the great progress you are making 
with New York and New Jersey on the Gateway Tunnel project. 
Congratulations. I suspect you have become a good friend of 
Senator Schumer's through all this, and I am hopeful we can 
continue to invest in that.
    Secretary Foxx. And the Governor's.

                            SHORT LINE RAIL

    Senator Coons. Let me just last mention that short-line 
railroads handle a great deal of agricultural commerce in my 
community and on the Eastern Shore of Maryland. If you could 
tell me briefly anything about how you think we can do a better 
job of helping America's short-line rail and the critical role 
they play for our ag sector.
    Secretary Foxx. You are exactly right. Our short-lines are 
critical. I think the changes that the FAST Act made to 
hopefully make the Railroad Rehabilitation and Improvement 
Financing (RRIF) program more accessible to short-line 
railroads will be very helpful because many of them do have 
large capital needs that they cannot necessarily meet on their 
own. The RRIF program was designed to help them, so we want to 
use as much of our existing capacity in the RRIF program to 
help them.
    We will do anything else we can think of to ensure that 
those short-line railroads are strong.
    Senator Coons. Thank you very much, Mr. Secretary.
    Secretary Foxx. Thank you.
    Senator Collins. Thank you.
    Senator Blunt.

                          SMART CITY CHALLENGE

    Senator Blunt. Thank you, Chairman.
    Mr. Secretary, thank you for your leadership of the 
Department. The FAST Act, the 5-year highway bill. After 37 
extensions of the highway bill, it is really well-received 
throughout the country. It would not have happened without your 
leadership, and we are all pleased we had a small part of 
working with you on that.
    TIGER grants, as you know, the Champ Clark Bridge, which is 
I think the oldest bridge still crossing the Mississippi River, 
is going to be replaced with partially a TIGER grant, and a big 
commitment from both Illinois and Missouri. But I think the 
TIGER grant made that whole package come together.
    Our hope now is that that bridge can safely be used until 
its replacement is put in place, because it is a significant 
detour to get to the next bridge on the river, if that bridge 
is not working. So thank you for that.
    To follow up on Senator Coons' thoughts about the PTC, just 
awareness for you and the folks in the line of chairs there 
behind you, in the FAST Act, we authorized almost $200 million 
of that $1.3 billion to help commuter railroads install PTC, 
particularly in areas where the State has a significant 
obligation for how those commuter terminals work.
    We have a situation in both Kansas City and St. Louis where 
access to some of that $200 million--actually, it is $199 
million. I assume $200 million would have been too much, so 
Congress, in its wisdom put $199 million in that particular 
category. It is available for States who are involved in public 
transportation and have some unique responsibility for 
implementing positive train control. I just wanted to mention 
that, so you are aware that it matters significantly to how the 
commuter rail system works in our State.
    Also, I was pleased, as I am sure the other Smart City 
Challenge finalists were, to see Kansas City--I am sure 
everybody who had a city in that was pleased to be part of it. 
But I clearly think Kansas City is a great potential testing 
ground for Smart Cities.
    It is the first Google fiber city. It is a nexus of 
interstate transportation from west of us, south of us, north 
of us. Several interstates come together there. And also 
putting in that new trolley system, they have been able to put 
some of the first phase equipment in already.
    I know the chairman mentioned her interest and an interest 
I share with what is happening with smart car technology. How 
do you see that Smart City model coming together? And what do 
you think we learn by looking at the city you finally select? I 
think you are down to six or seven finalists now to be the 
Smart City finalist.
    Secretary Foxx. It is a great question. I see three 
different buckets. One is what the private sector is doing, 
which is testing, innovating, coming up with new ideas for 
technology.
    Currently, in general terms, there are some that are 
working on connected cars that talk to each other using kind of 
a GPS signal, and there is another group that is working on 
autonomous cars, which have a roving eye and kind of see the 
environment just like you and I do.
    We actually believe those two technologies are going to 
merge and you are going to have autonomous connected cars in 
the future. But industry is working to innovate.
    The second bucket is what we do at the government level. We 
have promised to give the industry our best guidance--not the 
industry, but even the States--good guidance on how to lay a 
foundation for this technology to be integrated into the 
marketplace. That is work that we have promised to do as an 
agency.
    Then the third piece is, if you have the technology and you 
have the foundation, how do people actually make use of it? The 
Smart City Challenge is really our way of putting the challenge 
to American cities to help define how these technologies can be 
used. And not just those technologies, but how to use data and 
analytics better to shape this transportation decisionmaking, 
how does land use integrate with that.
    So we are very pleased to see 78 great cities submit 
applications. We have seven finalists, and we plan to announce 
the winner of the challenge in June. But we also plan to give 
every city that has applied our best pathway to use Federal 
programs to implement the plans they sent to us so that there 
are hopefully no losers. Every city hopefully wins.
    Senator Blunt. Thank you, Chairman.
    Senator Collins. Thank you.
    Senator Schatz.

                           PEDESTRIAN SAFETY

    Senator Schatz. Thank you very much.
    Secretary Foxx, thanks for your leadership. I am still 
waiting to hear from you regarding your trip to Hawaii. We have 
a request. As you know, we have some unique needs and some 
unique new projects, the Kauai TIGER grant, the rail transit 
program. And we are the most isolated populated place on the 
planet. So we have some unique transportation infrastructure 
needs.
    As you know, I support community planning strategies to 
create walkable neighborhoods and to take care of pedestrians. 
I think you understand that transportation systems have to be 
complete. They have to be viable for cars and rail, for buses, 
for bikes, and for people.
    Senator Heller and I worked in the FAST Act to include a 
provision that would allow the Department of Transportation to 
work with metropolitan planning organizations (MPOs) and other 
agencies to work on reducing traffic fatalities.
    In particular, Hawaii has the unfortunate distinction of 
being number one in terms of senior fatalities on the street. 
We had nearly 5,000 in 2014, and that number continues to creep 
up.
    So can you tell me what the Department will do to implement 
the policy that Senator Heller and I worked on in the FAST Act, 
and more generally, what you are doing this year to reverse the 
trend on pedestrian fatalities?
    Secretary Foxx. First of all, thank you for the question. 
It is an incredibly important issue. When I walked into the 
Department, that was the one area, bike and pedestrian 
fatalities, where we were actually seeing an uptick. This year, 
I think our estimates are a 9 percent increase.
    A couple things. Just this week, the Federal Highway 
Administration published new safety performance measures that 
call for State and regional targets to reduce highway deaths 
and injuries. And it includes a separate target for pedestrian 
and bicyclist fatalities and serious injuries.
    We have also included a bike pedestrian performance measure 
to signal our commitment to nonmotorized safety.
    We have also launched a Safer People, Safer Streets 
initiative with America's mayors. We have more than 200 mayors 
across the country who signed on to use best practices in their 
cities to build the kinds of sidewalks and pedestrian and bike 
facilities that are necessary to ensure safety.
    There is still a lot of work to do and building on the 
language that you had put in the FAST Act, we are going to 
implement that as soon as we possibly can.
    Senator Schatz. We are going to need your continued 
leadership, because one of the challenges that we have in 
Congress is that this has actually become, unfortunately, a 
partisan issue for some where it becomes a question of whether 
or not you support smart growth, location efficiency, 
multimodal transportation, rail, all those things, which 
sometimes cut along liberal and conservative lines when, in 
fact, if you look at mayors, if you look at the AARP, this is a 
question of keeping people safe as they walk around.
    It was incredibly disappointing to see that this became a 
sort of dividing line about whether or not you think people 
ought to use cars.
    We have two cars in our family. We use cars. We appreciate 
the highway system. We appreciate every aspect of the 
transportation system.
    But I think it is going to require the continued leadership 
of the Federal Department of Transportation to push on MPOs, to 
push on not-for-profits, to make sure that everybody 
understands it cannot possibly be a partisan issue to keep our 
seniors and our kids safe as they walk to school or they walk 
to the market.
    Secretary Foxx. Thank you. If I may just add one small 
additional point?
    Senator Schatz. Please.
    Secretary Foxx. Which is that on these revised NCAP 
standards, the way that we rate cars, the five-star rating 
system that NHTSA uses, one of the things we are going to score 
in the future is the collision avoidance systems that deal with 
things outside the car, including pedestrians.
    That is another way that we are working to address this 
issue, and it is a way that technology did not make available 
just a few years ago but now we think it can. So that is 
another way we are trying to get at this.
    Senator Schatz. Thank you very much.
    Secretary Foxx. Thank you.
    Senator Collins. Thank you.
    Senator Boozman.

                                 TIGER

    Senator Boozman. Thank you, Madam Chair. And I thank you 
and the ranking member for holding this important hearing.
    We appreciate having you here, Secretary Foxx, and all of 
your hard work on the behalf of improving our infrastructure in 
so many different ways.
    I appreciate the work that Senator Collins and the 
committee have done to strengthen the TIGER program and provide 
critical infrastructure resources. I do hear concerns from 
applicants that the Department can do a little bit more to 
increase support and help applicants improve their proposals.
    Then also, very importantly, those who were not fortunate 
enough to get a grant, as to what the problem was, how they can 
come back on the next go-round and really the criteria of what 
you are looking for. So we would like to work with you on that.
    Can you talk a little bit about that and just tell us how 
you are trying to remedy that? I suspect you are hearing that a 
little bit also.
    Secretary Foxx. Sure. I think it is a great point. I think 
Congress has done us a service by lowering the minimum amount 
that can be used, for example, for rural areas and even urban 
areas, because there are some communities where $1 million or 
$2 million could do something really big for that community.
    Senator Boozman. Very much. You understand that as an old 
mayor.
    Secretary Foxx. I do. I do. I also understand that some 
communities can hire fancy consultants to package their 
proposals, and in some communities, you have two people sitting 
across a desk trying to figure out when the deadline is.
    So what we have tried to do is to avail ourselves through a 
variety of mechanisms, outreach where we actually deploy people 
out in the country to do focus groups with people to try to 
help them understand the process. We have done webinars.
    By the way, we offer technical assistance. So if you or 
someone in your State called us and said, ``Hey, I am thinking 
about applying to TIGER. Can someone help me work through the 
process?'' my instructions to our staff is to help those folks 
get their package together and help them do the best they can 
in the process.
    So those are the tools that we try to use. I am 
particularly concerned, quite frankly, for our rural areas that 
are a lot of times stretched thin and underresourced to make 
sure that we in the review phases are giving folks a very 
careful look and asking a lot of questions to try to make sure 
that we are making an evaluation that is fair to them.
    So that is the work that we do. We have had some successes. 
In fact, the last round of TIGER, we had almost 40 percent of 
the TIGER grants go to rural America. I am very proud of our 
ability to do that.
    Senator Boozman. Very good. Thank you.
    Secretary Foxx. Yes.

                         AIRPORT CERTIFICATION

    Senator Boozman. Another thing that I would like to 
emphasize is the importance of modernizing and improving the 
airport certification process. I know you have worked hard to 
help the aircraft industry. And again, to make it more 
competitive and successful, it would be nice if we could make 
it so that was a little bit easier to get done.
    I would like you to comment about that, but also, on a 
related note, the FAA recently published their notice of 
proposed rulemaking on Small Airplane Revitalization Act. The 
purpose of the legislation is to improve safety while cutting 
in half the cost of new aircraft certification.
    I believe the goal is to have the rulemaking done by the 
end of the year.
    So both of those, that is, certainly, very important, and I 
think it really would greatly help our aircraft industry, which 
I know that you are very interested in doing. So can you 
comment about those things a little bit?
    Secretary Foxx. Certainly, on part 23, which is the 
certification process you are referring to, I am very 
supportive of getting that rule done so that we can avail more 
of our industry of the advantages of being able to self-certify 
if they make certain requirements, if they meet certain 
requirements. So that process is underway.
    I am very hopeful that we will have that rule out before 
the end of the year, certainly--hopefully.
    And on the other one, I need to probably come back to you. 
I do not know that I am familiar with it, so I would like to 
have a chance to write you back on that.
    Senator Boozman. On the other one that you commented on, 
certainly, that is very important. It would be part of a 
significant part of the legacy, in the sense I know that you 
have worked very hard to get some of these things accomplished. 
But that is one that really does need to be and it is something 
we have grappled with for a while and we appreciate you taking 
it on. So hopefully, we can get it done in a timely process.
    Thank you all very much.

                       CONTRACT WEATHER OBSERVERS

    Senator Collins. Thank you, Senator.
    Mr. Secretary, we are going to do one more round of 
questions before we turn to the inspector general.
    The budget, as you are well-aware, proposes to eliminate 
contract weather observers at 57 airports across the country 
and require that air traffic controllers perform those 
functions, in addition to their existing responsibilities.
    In January, Senator Reed and I wrote to you and the FAA 
administrator, urging the FAA to fully assess all of the safety 
risks and hazards that could result from the loss of 
professional weather observers, particularly in cold-weather 
States like ours, prior to going through with the plan to 
eliminate the contract weather observer program at airports.
    These observers are really important in providing real-
time, critical weather information that helps keep our pilots 
and our passengers safe.
    For example, in Bangor, Maine, air traffic controllers are 
simply unable to leave the tower, which would prohibit them 
from observing real-time conditions like freezing rain or ice, 
which may not be easily discernible from the tower. And that is 
what our current weather observers do at Bangor International 
Airport.
    I also think it is important that our air traffic 
controllers remain focused on safely managing the air traffic, 
not on performing tasks that they are not specifically trained 
or have the experience to do and that others are now doing.
    So my question is, Mr. Secretary, have you considered our 
recommendation that the safety risk management panel reevaluate 
its proposal to determine if this change is truly wise and what 
the impact would be on safety, particularly in cold climate 
States?
    Secretary Foxx. Yes. Yes, the FAA is actually looking at 
this question. The way they are looking at this is they have 
deployed several panels to various sites across the country, 
including some cold-weather areas, to have these testers, if 
you will, test in accordance with FAA safety management 
systems.
    The panels will come back to the FAA with recommendations. 
Those recommendations will not be final until they have gone 
through an internal process at the FAA.
    So what I would say is that your letter has prompted the 
FAA to do a much more extensive review of this question, and 
that is prompting this work that is being undertaken. And no 
final decisions will be made until we have heard back from 
those folks, and we will, certainly, be happy to share what we 
hear back with you.
    Senator Collins. That is very good to hear. I know that the 
air traffic controllers and the airport managers in both of our 
States would be happy to talk with FAA further also.
    Secretary Foxx. Good.
    Senator Collins. Let me switch to one other issue for my 
final question, and then I am going to submit the rest for the 
record. There are many, so you can be happy about that part.
    Secretary Foxx. Thank you.

                       MARITIME TRAINING VESSELS

    Senator Collins. Training ships at our State maritime 
academies are rapidly approaching the end of their service 
lives. The fleet ranges in age from 27 to 55 years old. Without 
training vessels, the maritime academies simply will not be 
able to prepare adequately the future generations of maritime 
workers. These vessels are an important part of the curriculum 
as sea time is required for graduation and for licensure.
    Last year, in the 2016 budget, the administration requested 
and Congress provided $5 million for the design and planning of 
a replacement vessel. I would note that the oldest vessel 
reaches the end of its service life in 2019, and the T.S. State 
of Maine at Maine Maritime Academy will reach the end of its 
service life in 2025.
    I am disappointed, therefore, that instead of moving 
forward with the design and construction of the new vessel, 
which is what we anticipated, the budget request instead 
proposes to conduct yet another analysis of alternatives.
    Now the Department has already completed a feasibility 
study and initial analysis of alternatives, and a preliminary 
business case analysis for the national security multimission 
vessel.
    Mr. Secretary, I guess my question is, given the $5 million 
that was provided, why isn't the administration seeking funding 
for the construction of a replacement training vessel, given 
the age of these vessels that are fast approaching the end of 
their useful lives?
    Secretary Foxx. That was a very well-put question. The 
reality is that we have been debating this internally within 
the Department for quite some time. I think it is fair to say 
that our Maritime Administration feels very strongly that we 
need to tackle this issue and to get the new ships put in 
place.
    I guess the best answer I can give you is that, in the 
course of balancing all of the equities throughout the budget 
process, this is one where we felt like additional independent 
verification and analysis and consideration of the training 
requirements for cadets, we believe that we need to look at 
this more in terms of understanding whether the ships are, in 
fact, necessary for training.
    But I understand the argument on the other side and, 
certainly, understand if the committee feels differently about 
it.
    Senator Collins. Having christened one of those ships, I 
can tell you that they are absolutely essential. Most of these 
cadets either end up going into the Navy or most of them into 
the Merchant Marine. If they do not have actual sea time, they 
cannot get the licenses that they need. They can't even 
graduate from these academies.
    So let me just end by saying that I hope you will work with 
us. Surely, in a $98 billion budget, we ought to be able to 
find this funding.
    Senator Reed.

                    TRANSPORTING HAZARDOUS MATERIALS

    Senator Reed. Thank you very much, Madam Chairman.
    Mr. Secretary, the Pipeline and Hazardous Materials Safety 
Administration (PHMSA) maintains a database with respect to 
special permits and approvals for hazardous materials 
transportation. The inspector general has issued a report that 
describes it as out-of-date and incomplete, which inhibits the 
ability of FRA inspectors to carry out their role of ensuring 
the safe transportation of these materials.
    So could you comment on what the PHMSA is doing to address 
the issue? And, critically, when we will the FRA inspectors be 
able to get ready access to that information to do their jobs?
    Secretary Foxx. The fiscal year 2017 request includes 
investments and requests for funding to do some additional IT 
investments to help us in this regard. It is part of a 6-year 
IT strategy that includes a well-developed investment plan 
supporting improvements and a Web-based system.
    PHMSA has made improvements to the hazardous material 
shipment data collected, including adding a Dun & Bradstreet 
identifying number and shipper profile information to its Web 
portal. It is also developing certification for a data 
operations quality management system that will improve user 
satisfaction with data portals, including the hazmat Web 
portal. And PHMSA is also developing an online smart form that 
will streamline the incident reporting process to improve the 
quality of data.
    So there are steps that are being undertaken. We are also 
asking for resources in the budget to help us take those steps 
further.

                  SEXUAL ASSAULT AND SEXUAL HARASSMENT

    Senator Reed. Thank you, Mr. Secretary. Let me turn to 
another topic.
    You are the Cabinet Secretary responsible for the United 
States Merchant Marine Academy. This is an issue that cuts 
across too many campuses across the country and for my service 
on the Armed Services Committee, it is also obviously an issue 
at the service academies, the Air Force, the Navy, and West 
Point. That is the issue of sexual harassment.
    Each year there is a survey that must be done. Of the 136 
women at the academy, 17 percent reported in this anonymous 
survey that they were victims of sexual assault, and 63 present 
reported being a victim of sexual harassment.
    I know you do not tolerate this. You do not accept it. The 
question is what we can all do to change the culture and to 
provide more training and more support, so these statistics 
improve dramatically and quickly.
    Secretary Foxx. First of all, I want to thank you for the 
question, and I want to thank this committee, including 
Chairman Collins and former Ranking Member Patty Murray so much 
for continuing to focus on this.
    It is a culture issue in our academies and, in particular, 
at the Merchant Marine Academy. When I came into the 
Department, we had this issue on the plate. We worked with the 
academy to ensure that there were people in place at the 
academy who were focused on making sure that complaints had a 
ready place to go and that they were being adjudicated 
effectively.
    Unfortunately, this is an area where our success in that 
regard looks like failure because you start to get reports up.
    The other thing that we have taken very seriously is to 
ensure we are being very intentional about ensuring more gender 
diversity in the ranks of recruits to the academy. The 
statistics that I have been given tell me that at the 25 
percent level, the culture starts to shift and you begin to 
have a culture in which these types of behaviors are not 
tolerated and there is a critical mass of women there to 
enforce against that. So we are working on that as well.
    But we will continue at this until we get it right.
    Senator Reed. I think just an aside, but the experience--my 
closest proxy is West Point--is that as more and more female 
cadets came in, that culture began to change, but more 
specifically, as more and more of the faculty and instructors 
and administrators were females, it accelerated that change.
    I say with some pride that we have our first female 
Commandant at the military academy, so that is another 
direction I would encourage you to go in.
    Secretary Foxx. Absolutely.

                             AMTRAK SERVICE

    Senator Reed. Final question, if I may, and that is the 
Northeast corridor, the Federal Railway Administration has 
launched this. They are looking ahead, which I commend them 
for, the vision for the Northeast corridor in the future. I 
would hate to see that vision exclude in any way services to 
Rhode Island.
    Amtrak plays a key role in our economy. In fact, the 
Providence station is not only a large Amtrak station, it is 
the biggest Massachusetts Bay Transportation Authority (MBTA) 
station outside of Boston's South Station. To have a future 
which would avoid Rhode Island in any way, shape, or form, 
either through routes or through services, would be, I think, 
wrongheaded. So I wonder what you might comment.
    Secretary Foxx. Yes, look, I know how the alternatives 
process works. But I see no future where Rhode Island gets 
bypassed. That is where I come down very solidly.
    In fact, I have had conversations with Governor Raimondo 
about ways to potentially look at enhancing service in Rhode 
Island. We look forward to working with you and her on that.
    Senator Reed. Thank you very much, Mr. Secretary.
    Thank you, Madam Chairman.
    Senator Collins. Thank you.
    Mr. Secretary, I very much appreciate your testimony today. 
I was thinking about the range of questions that you answered 
today, which literally spanned the spectrum from trains to 
driverless cars to metros to ships to bridges to subways. It 
really is an amazing span that your Department covers, and we 
did not get even get to two questions I wanted to ask you, one 
on buses and the other having to do with drones. So the number 
of areas under your responsibility truly is tremendous.
    We will be submitting additional questions for the record, 
and the hearing record will remain open until next Friday, 
March 25, for other members to submit questions to supplement 
ours.
    Senator Collins. I now thank you for testifying and would 
call up our next witness, the inspector general.
    Secretary Foxx. Madam Chair, if I might just say one thing, 
I was talking to my staff yesterday and they said that this may 
be my last appearance before this committee, perhaps my final 
testimony, period, knock on wood. I hope that is true.
    [Laughter.]
    Secretary Foxx. But I wanted to say, on a personal note to 
both you and to the ranking member, that a lot of times in 
politics, particularly in a rancorous presidential election 
year, there is a lot of noise about how things do not work.
    What I wanted to say to you is that I appreciated your 
friendship, your willingness to work out issues with us, and 
the fact that we all recognize that transportation is neither a 
Democratic nor Republican issue. It is an American issue.
    So I just wanted to say thank you so much for your 
friendship. Thank you for the hard work that you do for our 
Department and for the American people, and I look forward to 
working with you through this budget process. Thank you.
    Senator Collins. Thank you very much, Mr. Secretary. I very 
much appreciate those thoughtful words. I look forward, as I 
know the ranking member does, to working with you as we draft 
our bill. It has been a pleasure working with you, and I 
commend you for your leadership.
    Secretary Foxx. Thank you.
    Senator Collins. Thank you.
    Our next witness today is the Hon. Calvin Scovel, the 
inspector general of the Department of Transportation.
    Mr. Inspector General, when you are ready, please proceed 
with your statement.
STATEMENT OF HON. CALVIN SCOVEL, INSPECTOR GENERAL, 
            DEPARTMENT OF TRANSPORTATION
    Mr. Scovel. Chairman Collins, Ranking Member Reed, members 
of the subcommittee, thank you for inviting me to testify today 
on DOT's budget priorities. Each year, DOT spends more than $70 
billion across a wide range of transportation programs. 
Regardless of specific budget levels, effective oversight and 
management are key to meeting the Department's goals and 
protecting taxpayers' investments.
    My testimony today focuses on three crosscutting management 
challenges: safety, stewardship, and IT security.
    Improving highway safety continues to be one of the 
Department's most important priorities. In 2015, we made 17 
recommendations to enhance NHTSA's ability to remove unsafe 
vehicles from roads. This includes collecting and analyzing 
more comprehensive vehicle safety data.
    While NHTSA has taken steps to strengthen its defect 
investigations, the agency must now effectively implement its 
planned improvements to ensure automakers promptly identify 
defects and recall defective vehicles. Unsafe commercial 
drivers further threaten the safety of our highways, 
particularly those who repeatedly violate medical-, drug-, and 
alcohol-testing requirements and other safety regulations.
    Of the 272 motor carrier safety cases that OIG's criminal 
investigators have initiated since 2008, 14 percent involved 
carriers that were banned from the roads for safety violations 
but continued to operate under a new business name.
    At the same time, DOT must work to maintain our Nation's 
strong aviation safety record. The introduction of unmanned 
aircraft systems (UAS) creates one of the most significant 
safety challenges in decades. This week, FAA will have approved 
more than 4,000 commercial UAS to operate in our airspace, and 
the number of operators is certain to increase once FAA 
publishes a final rule for small UAS this year.
    However, FAA has yet to establish standard procedures or 
training for air traffic controllers to safely manage UAS in 
the same airspace as manned aircraft. In addition, FAA 
inspectors lack clear guidance for how to conduct UAS 
oversight, and FAA lacks formal systems to track and classify 
the severity of UAS incidents.
    With regard to stewardship, DOT has opportunities to 
improve oversight of its investments and assets. For example, 
we recently reported that FAA awarded a new $727 million 
contract for controller training without first addressing 
longstanding issues that we had identified in its prior 
controller-training contract, issues that resulted in millions 
of dollars in cost overruns.
    Similarly, last year we reported FTA had not fully 
implemented the required processes and internal controls to 
award and monitor $10 billion in grant funds allocated for 
Hurricane Sandy relief. Strong risk-based oversight, financial 
controls, and planning are vital to eliminating fraud and 
maximizing Federal investments.
    Sustaining a skilled workforce, DOT's most important asset, 
also remains a key challenge, particularly as workforce 
demographics change.
    For example, 22 percent of DOT's acquisition workforce, not 
counting FAA, was retirement eligible last year. From air 
traffic controllers to FAA oversight personnel to vehicle 
defect analysts, DOT must identify how many staff it needs in 
these positions and ensure its training programs keep pace with 
changing technology.
    Finally, with regard to IT security, DOT has made major 
progress in implementing the required use of personal identity 
verification (PIV) cards for all employees and contractors. 
This is a key step in securing access to facilities and 
systems.
    However, DOT has been slow to address longstanding 
cybersecurity weaknesses, such as the lack of effective systems 
to continuously monitor for threats.
    The September 2014 fire at a Chicago air traffic control 
facility also demonstrated the importance of effective 
contingency planning. Damage from the fire crippled that 
facility and its systems for 2 weeks, significantly impacting 
passengers and airlines.
    Earlier this month, we reported that 5 of the Department's 
12 operating administrations were not effectively testing or 
meeting all requirements for their disaster recovery plans.
    The Department has consistently demonstrated its commitment 
to addressing these challenges, but effective management and 
follow-through remain imperative. My office will continue to 
assist the Department as it works to meet these goals.
    Chairman Collins, this concludes my prepared statement. I 
am happy to answer any questions you and members of the 
subcommittee may have.
    [The statement follows:]
            Prepared Statement of Hon. Calvin L. Scovel III
    Chairman Collins, Ranking Member Reed, and Members of the 
Subcommittee:
    Thank you for inviting me here today to discuss the Department of 
Transportation's (DOT) budget priorities. Each year, the Department 
spends over $70 billion on a wide range of programs to meet its top 
priority of transportation safety and to maintain and modernize 
transportation systems. We remain committed to assisting DOT as it 
works to improve how it manages programs and resources. My statement 
today will focus on three cross-cutting management challenges: (1) 
addressing DOT's new and longstanding safety challenges, (2) continuing 
diligent stewardship over DOT's critical investments, and (3) enhancing 
DOT's information technology (IT) security and preparedness. Regardless 
of specific budget levels requested or approved, effective oversight 
and management of safety efforts, major transportation projects, and 
DOT assets are critical to ensure the greatest return on the taxpayers' 
investment.
                                summary
    Safety is DOT's top priority, and the Department faces a range of 
emerging and longstanding safety challenges. These include safely 
integrating Unmanned Aircraft Systems (UAS) into the National Airspace 
System (NAS), addressing risks posed by the transport of hazardous 
materials (hazmat), and removing unsafe vehicles and commercial drivers 
from roadways. At the same time, DOT must carry out its safety mission 
within a framework of diligent stewardship over its investments and 
assets. In particular, continued attention to strengthening the 
Department's internal controls and risk-based oversight is critical to 
the efficiency of taxpayer-funded projects to build, repair, and 
maintain the Nation's surface transportation system. DOT can also do 
more to reduce risk in its billion-dollar efforts to modernize the 
Nation's aviation system and to develop and sustain a high-performing 
workforce. Finally, DOT continues to struggle to secure the 450-plus 
information systems it uses to conduct business and operate critical 
transportation systems, ensure continuity of operations, and safeguard 
systems from insider threats.
           addressing new and longstanding safety challenges
    Making the Nation's airspace, environment, and roads safer 
continues to be DOT's top priority. Addressing a number of new and 
longstanding safety issues we have identified will be critical for DOT 
to maintain and improve the Nation's transportation safety record. In 
addition to the new challenges of safely integrating UAS into the NAS, 
DOT must continue to reduce safety risks in transporting hazardous 
materials while improving safety on our Nation's roadways.
Integrating Unmanned Aircraft Systems Safely Into the National Airspace 
        System
    DOT, the Federal Aviation Administration (FAA), and industry have 
maintained a remarkably safe aviation system, with no fatal passenger 
accidents involving domestic commercial carriers in over 7 years. 
However, the growing demand for commercial UAS operations--for purposes 
ranging from precision agriculture operations to package delivery--
presents one of the most significant safety challenges for FAA in 
decades. Analysts predict that as much as $93 billion will be invested 
in the technology worldwide over the next 10 years.
    The FAA Modernization and Reform Act of 2012 requires FAA to take 
multiple steps to safely integrate UAS into the NAS. However, FAA and 
industry have not reached consensus on UAS-specific technology 
standards that are critical to safe integration. For example, FAA and 
industry still lack standards to ensure that UAS can automatically 
detect and successfully maneuver around other aircraft operating in 
nearby airspace.\1\
---------------------------------------------------------------------------
    \1\ While FAA 14 CFR 91.113 describes a pilot's ability to ``see 
and avoid'' other aircraft, the UAS community is using the term 
``detect and avoid'' to describe the desired capability of UAS.
---------------------------------------------------------------------------
    FAA also lacks a regulatory framework for UAS integration, which 
would govern areas such as small UAS (under 55 pounds) operations, 
beyond-line-of-sight procedures, larger unmanned aircraft systems, and 
pilot qualifications. FAA currently approves commercial UAS operations 
only on a case-by-case basis, leveraging an authority granted by 
Congress to exempt small UAS from certification requirements.\2\ So 
far, FAA has issued over 3,800 exemptions. We are currently reviewing 
the UAS exemption and safety oversight processes. FAA intends to issue 
its rule on small UAS operations in late spring 2016--more than a year 
and a half behind the schedule established in the act. However, several 
high-profile aspects of UAS use--such as package delivery--will not be 
covered under the rule, which underscores the need for further 
regulatory efforts. FAA also has not established standard procedures 
for safely managing UAS in the same airspace as manned aircraft or an 
adequate UAS training program for controllers.
---------------------------------------------------------------------------
    \2\ These requirements include the steps necessary to obtain an 
airworthiness certificate, including demonstrating to FAA that the UAS 
conforms to an approved aircraft design and is in condition for safe 
operation.
---------------------------------------------------------------------------
    As the number of UAS operations continues to grow, safety and 
oversight will remain a significant concern. According to FAA, reported 
UAS sightings by pilots have increased significantly, with more than 
1,100 reports in 2015, compared to just 238 reported in all of 2014. 
Some reports indicated safety risks, such as pilots altering the course 
of their aircraft to avoid UAS. Despite these risks, FAA does not have 
a formal system to track and classify the severity of UAS incidents. In 
addition, FAA inspectors still lack clear guidance on how to conduct 
UAS oversight. FAA reports that, through its recently established 
registration process, nearly 370,000 operators have already registered 
their unmanned aircraft. The impending rule on small UAS is likely to 
further increase the number of UAS in our airspace, making UAS 
oversight an increasingly critical responsibility for FAA's safety 
inspector workforce.
Strengthening Cross-Modal Efforts To Address Pipeline and Hazmat Safety 
        Risks
    A key DOT mission requiring strong cross-modal efforts is 
mitigating the safety risks posed by transportation of hazmat. From 
2010 through 2014, there were more than 3,000 pipeline and 78,000 
hazmat incidents in the United States, including about 3,500 rail 
incidents involving hazmat. These incidents resulted in fatalities and 
injuries, as well as environmental and property damage. Transportation 
of hazmat by air also presents serious risks, with more than 70 
incidents worldwide between 1991 and 2014 involving lithium batteries 
in aviation cargo and passenger baggage.\3\
---------------------------------------------------------------------------
    \3\ These incidents included extreme heat, smoke, fire, or 
explosions in aviation cargo and passenger baggage.
---------------------------------------------------------------------------
    The Pipeline and Hazardous Materials Safety Administration (PHMSA) 
works to implement robust and timely safety measures for mitigating 
significant hazmat and pipeline accidents. However, PHMSA has made 
limited progress towards meeting safety recommendations by the National 
Transportation Safety Board (NTSB) and congressional mandates. For 
example, PHMSA has not fully implemented a 2007 NTSB recommendation to 
require railroads to immediately provide emergency responders with 
real-time information regarding the identity and location of all 
hazardous materials on a train. PHMSA also has not fully implemented 
the safety measures included in the Pipeline Safety, Regulatory 
Certainty, and Job Creation Act of 2011.\4\ These measures aim to 
improve operators' assessments of gas pipelines, require leak detection 
systems on hazardous liquid pipelines, and establish regulations for 
transporting carbon dioxide by pipeline.
---------------------------------------------------------------------------
    \4\ Public Law No. 112-90 (2012).
---------------------------------------------------------------------------
    On the aviation front, FAA established the Hazardous Materials 
Voluntary Disclosure Reporting Program (HM VDRP) in 2006, which allows 
air carriers to voluntarily disclose violations of hazmat regulations 
without receiving civil penalties. While this is a good step towards 
encouraging air carriers to improve hazmat safety, our 2015 report \5\ 
found that FAA lacked an adequate framework of internal controls to 
effectively carry out HM VDRP. For example, FAA requires air carriers 
to complete corrective actions for violations they disclose through the 
program. However, for 31 of the 48 (65 percent) closed cases we 
reviewed, FAA did not request sufficient evidence to verify that air 
carriers completed all corrective actions or conducted self-audits as 
required. In response to our findings, FAA recently issued a new policy 
to require air carriers to document all corrective actions taken and 
FAA regions to coordinate with FAA Headquarters on proposed corrective 
actions and significant HM VDRP cases. Effective implementation of this 
policy will require follow through with adequate training and guidance 
to maximize HM VDRP's potential as a safety program.
---------------------------------------------------------------------------
    \5\ Program and Data Limitations Impede the Effectiveness of FAA's 
Hazardous Materials Voluntary Disclosure Reporting Program (OIG Report 
Number AV-2015-034), March 13, 2015.
---------------------------------------------------------------------------
    Finally, the Federal Railroad Administration's (FRA) enforcement of 
PHMSA regulations plays a large role in the safety of hazmat 
transported by rail. In fiscal year 2015, FRA reported that its 
inspectors identified 1,670 violations of hazardous materials 
regulations, and the Agency fined railroads and other regulated 
entities \6\ roughly $3.9 million. Key elements in an effective 
enforcement program are considering risk when allocating enforcement 
resources and imposing sufficient penalties to deter future violations. 
Last month, we issued a report identifying shortcomings in the risk 
assessments FRA uses for allocating hazardous materials inspection 
resources and raised concerns about FRA's use of civil penalties and 
lack of criminal case referrals to OIG. FRA has agreed to implement our 
recommended improvements.\7\
---------------------------------------------------------------------------
    \6\ Entities that received these violations and fines may include 
railroads, shippers, or tank car repair facilities.
    \7\ FRA's Oversight of Hazardous Materials Shipments Lacks 
Comprehensive Risk Evaluation and Focus on Deterrence (OIG Report 
Number ST-2016-020), February 24, 2016.
---------------------------------------------------------------------------
Increasing Safety on Our Nation's Highways
    Recent large-scale recalls from automotive manufacturers and 
continued efforts to enforce motor carrier regulations highlight a 
number of safety challenges the Department faces. Over the last 2 
years, General Motors (GM) has recalled nearly 9 million U.S. vehicles 
for a defect involving a faulty ignition switch after it received more 
than 100 reports of death claims and more than 200 injury claims.\8\ 
The GM recall and others have prompted reviews and recommendations on 
how NHTSA can improve its safety processes and controls, and NHTSA is 
working to address these concerns. For example, in 2011 we made 
recommendations to strengthen NHTSA's Office of Defects Investigations' 
(ODI) procedures for documenting and retaining evidence on defects 
investigations, coordinating with foreign nations to identify safety 
defects or recalls, and documenting its justifications for not 
investigating identified defects. Last month, we reported on NHTSA's 
progress towards those recommendations.\9\ While NHTSA has completed 
the agreed-upon actions, we are concerned with how it is implementing 
some of them; in particular, NHTSA lacks mechanisms to ensure staff 
consistently apply the new policies. For example in response to one of 
our recommendations, ODI agreed to document justifications for 
exceeding investigation timeliness goals; however, over 70 percent of 
delayed investigations we reviewed did not include justifications for 
why these goals were not met. We made two new recommendations to 
enhance ODI's quality control mechanisms, and NHTSA fully concurred.
---------------------------------------------------------------------------
    \8\ GM's ignition switch compensation fund had approved 124 death 
and 275 injury claims as of August 21, 2015.
    \9\ Additional Efforts Are Needed To Ensure NHTSA's Full 
Implementation of OIG's 2011 Recommendations (OIG Report Number ST-
2016-021), February 24, 2016.
---------------------------------------------------------------------------
    NHTSA also agreed to implement the 17 recommendations stemming from 
our June 2015 audit, which found weaknesses with how ODI collects 
vehicle safety data and uses that data to determine whether to open an 
investigation.\10\ For example, ODI's processes were insufficient for 
verifying that manufacturers submit complete and accurate early warning 
reporting data, which can be essential for identifying potential safety 
trends or concerns.
---------------------------------------------------------------------------
    \10\ Inadequate Data and Analysis Undermine NHTSA's Efforts To 
Identify and Investigate Vehicle Safety Concerns (OIG Report Number ST-
2015-063), June 18, 2015.
---------------------------------------------------------------------------
    It will also be critical for NHTSA to follow through on NHTSA's 
Path Forward, a 2015 self-evaluation report released by the Secretary 
of Transportation. Through this effort, the Secretary seeks to improve 
NHTSA's ability to hold manufacturers accountable by implementing more 
effective methods for overseeing carmakers and their suppliers, as well 
as collecting and communicating vital safety information. The Secretary 
also announced the formation of an expert panel to help strengthen 
NHTSA's defect investigation workforce. It will be important for DOT to 
closely monitor how NHTSA addresses the panel's findings and 
recommendations.
    At the same time, DOT has important opportunities to improve the 
safety of its highway infrastructure, particularly the bridges and 
tunnels that connect our Nation's roadways. For example, the Federal 
Highway Administration (FHWA) must maintain momentum in its initiatives 
in response to our recommendations to implement data driven, risk-based 
oversight of bridges and implement improvements to bridge safety 
mandated under the Moving Ahead for Progress in the 21st Century Act 
(MAP-21).\11\ FHWA must also continue its oversight of highway tunnel 
safety according to the National Tunnel Inspection Standards that 
became effective in August 2015 and maintain a national tunnel 
inventory.
---------------------------------------------------------------------------
    \11\ FHWA Has Not Fully Implemented All MAP-21 Bridge Provisions 
and Recommendations (OIG Report Number MH-2014-089) August 21, 2014, 
and FHWA Effectively Oversees Bridge Safety, but Opportunities Exist To 
Enhance Guidance and Address National Risks (OIG Report Number ST-2015-
027) February 18, 2015.
---------------------------------------------------------------------------
    Another critical--and longstanding--highway safety concern is 
reducing motor carrier fatalities. Our safety investigations continue 
to identify challenges for the Department and the Federal Motor Carrier 
Safety Administration (FMCSA) as they seek to remove unsafe motor 
carriers from highways. Since fiscal year 2008, we have opened 272 
criminal investigations involving motor carrier safety. I would like to 
highlight two focus areas where the Department and FMCSA can bolster 
their safety efforts.
    First, FMCSA must take stringent enforcement and out-of-service 
actions to remove motor carriers that repeatedly violate and blatantly 
seek to circumvent safety regulations, including (1) hours of service 
regulations and records of duty status; (2) medical, drug, and alcohol 
testing requirements for drivers; and (3) vehicle inspection, repair, 
and maintenance records. In some instances, these carriers have been 
involved in multi-vehicle crashes and fatalities. While FMCSA has taken 
enforcement actions and is collaborating with our office and other law 
enforcement partners to remove these carriers from service, carriers 
intent on breaking the law continue to pose a significant threat to 
highway safety. Key actions to keep unsafe carriers off the road 
include effective vetting of carriers' applications, focusing resources 
on high-risk carriers, and prosecuting companies that are caught 
violating the law.
    The second area concerns reincarnated carriers--carriers that 
attempt to operate as different entities in order to evade FMCSA's 
enforcement actions. Reincarnated carriers have been involved in 
approximately 14 percent of the motor carrier safety investigations we 
opened since fiscal year 2008. For example, in Texas, we investigated a 
company that was issued an unsatisfactory safety rating by FMCSA for 
numerous violations, including falsifying hours-of-service requirements 
and using drivers who were not medically examined or certified. After 
being placed out of service by FMCSA, the company reincarnated under a 
different name and was involved in a passenger bus crash that killed 14 
people. FMCSA proposed that Congress modify Section 521 of Title 49 
U.S.C. to make it a criminal penalty for knowingly and willfully 
violating an out-of-service order, which will assist in prosecuting 
reincarnated carriers. Criminal penalties under Section 521 currently 
contain only a misdemeanor provision, which is difficult to prosecute 
and less likely to result in jail time if prosecuted; therefore, its 
effect as a deterrent is limited.\12\
---------------------------------------------------------------------------
    \12\ 49 United States Code Section 521(b)(6)(A) is a misdemeanor 
statute for violations of certain FMCSA regulations.
---------------------------------------------------------------------------
    continuing diligent stewardship over dot's critical investments
    Diligent stewardship of DOT's investments of taxpayer funds is 
vital for the Department to effectively carry out its mission. While 
DOT remains committed to strengthening its oversight for highway, rail, 
and transit projects, opportunities remain to improve its risk-based 
oversight of projects and strengthen financial controls to protect its 
investments. In addition, FAA faces challenges in its efforts to 
provide effective contract and acquisition management--a critical 
element in reducing risk for the major programs and systems in which it 
has invested.
Maximizing Federal Investments Through Improved Risk-Based Oversight 
        and Better Financial Controls
    DOT receives over $50 billion in Federal dollars annually to fund 
projects to build, repair, and maintain the Nation's surface 
transportation system. Strong risk-based oversight and financial 
controls are key to the success of the more than 100,000 transportation 
projects funded by the Federal Highway Administration (FHWA) and 
Federal Transit Administration (FTA) each year.
    FHWA recently revised its overall risk-based strategy to overseeing 
Federal-aid highway project funds. This revised effort includes 
improving the linkage between FHWA's annual assessments of State and 
Federal-aid highway programs and analyzing that information to better 
target its oversight reviews of highway and bridge projects. FHWA 
recently completed its first full performance cycle with these revised 
initiatives; in future performance cycles, management will need to 
assess whether the program is robust and working as designed and make 
improvements where needed.
    However, to address more specific risks, FHWA needs to improve 
oversight of financial and program plans covering major highway and 
bridge projects--those exceeding $500 million in funding--to implement 
its new guidance on project estimating, and address the backlog of 
pending Federal-aid highway project closeouts to ensure effective use 
of Federal funds. In addition, FHWA has yet to finalize improvements to 
its financial information system to improve project data used to 
oversee its programs.
    FTA has similar opportunities to better target its oversight and 
use tools to meet its goals to ensure major projects are on time and 
within budget. For example, FTA did not verify the adequacy of the 
Metropolitan Washington Airports Authority's (MWAA) support for claimed 
costs on grant expenses for FTA's Dulles Rail Project.\13\ As a result, 
FTA initially reimbursed MWAA for more than $36 million in unsupported 
and unallowable costs.\14\ In addition, FTA faces challenges in 
overseeing how local transportation agencies continue to use the 
approximately $10 billion in relief funds for Hurricane Sandy. In 2015, 
we reported that FTA had not fully implemented the processes and 
internal controls (required by the Disaster Relief Appropriations Act) 
it established to award and monitor Hurricane Sandy funds.\15\ FTA also 
has yet to develop a formal coordination process with the Federal 
Emergency Management Agency to reduce the risk of duplicating emergency 
and disaster-related assistance.
---------------------------------------------------------------------------
    \13\ MWAA's Financial Management Controls Are Not Sufficient To 
Ensure Eligibility of Expenses on FTA's Dulles Rail Project Grant, (OIG 
Report Number ZA-2014-021), January 16, 2014.
    \14\ FTA and Federal grant conditions require that grant recipients 
maintain support for federally funded project costs. MWAA did not have 
sufficient documentation to support some of the expenses charged to the 
Dulles Rail Project and these costs are considered unsupported. These 
principles also specify the types of costs that are allowable under 
Federal grant awards. An example of an unsupported cost that we found 
was invoices that said ``labor'' with no further details or 
documentation about what these charges included. An example of an 
unallowable cost that we found was $54,000 for expenses that were 
outside the scope of the Phase 1 Project to which they were charged.
    \15\ FTA Has Not Fully Implemented Key Internal Controls for 
Hurricane Sandy Oversight and Future Emergency Relief Efforts (OIG 
Report Number ST-2015-046), June 12, 2015.
---------------------------------------------------------------------------
    Fraud remains another ongoing concern. For example, our 
investigators determined that an owner of a Massachusetts transit 
authority bus operator diverted grant funds that were designated to pay 
salaries, benefits, and other expenses for employees of the bus 
company.\16\ Similarly, during liaison and coordination efforts with 
FTA and other stakeholders, we discovered that a Hurricane Sandy 
grantee was not reporting fraud settlements to FTA. We have reported 
that the use of integrity monitors can help to prevent and detect fraud 
and noted the importance of sharing fraud allegations across 
organizations so we can partner to combat wrongdoing.\17\ As we stated 
in June 2015,\18\ FTA must focus on promptly addressing identified 
oversight issues; strengthening stakeholder agreements; and enhancing 
controls to prevent, detect, and report fraud.
---------------------------------------------------------------------------
    \16\ The former owner was sentenced in July 2015 to 70 months in 
prison and ordered to pay $688,772 in restitution in connection with 
his diversion of grant funds.
    \17\ Initial Assessment of FTA's Oversight of the Emergency Relief 
Program and Hurricane Sandy Relief Funds (OIG Report Number MH-2014-
008), December 3, 2013.
    \18\ Oversight of Major Transportation Projects: Opportunities To 
Apply Lessons Learned (OIG Briefing No. CC-2015-010), June 8, 2015. We 
briefed Members of the Committee on Oversight and Government Reform, 
Subcommittee on Transportation and Public Assets, United States House 
of Representatives.
---------------------------------------------------------------------------
Structuring Major Aviation Acquisitions To Successfully Manage Risk
    FAA continues to award high-dollar contracts without fully 
addressing and mitigating risk in the acquisition planning and contract 
award stages, often resulting in large cost overruns and delays in 
system implementation.
    First, FAA has had ongoing challenges in effectively structuring 
several of its major acquisitions.\19\ These issues have been prevalent 
with the $1.8 billion Automatic Dependent Surveillance-Broadcast (ADS-
B) system. ADS-B is a new satellite-based surveillance system for 
managing air traffic that is critical to the success of FAA's Next 
Generation Air Transportation System (NextGen). Since 2010, we have 
reported that FAA faces significant risks in implementing ADS-B and 
realizing benefits due to weaknesses such as its contract structure and 
oversight. For example, the ADS-B contract structure bundles tasks and 
costs, making it difficult for decisionmakers to manage the contract 
and track costs. In addition, FAA covered the first 18 years of ADS-B's 
28-year lifecycle through one contract award, rather than breaking it 
into more manageable segments as OMB and the Federal Chief Information 
Officer recommend.\20\ While FAA has finished deploying the 634 ADS-B 
ground radio stations, based on our ongoing review, it remains unclear 
whether FAA has fully mitigated past problems associated with contract 
management and oversight to ensure it can achieve ADS-B technical 
requirements and do so within budget. We plan to issue our next report 
providing an update on how FAA is addressing ADS-B contract weaknesses 
later this year.
---------------------------------------------------------------------------
    \19\ These acquisitions include the Wide Area Augmentation System 
(WAAS) Program, the Standard Terminal Automation Replacement System 
(STARS), and the En Route Automation Modernization (ERAM) system. FAA 
has awarded contracts for these large modernization efforts using a 
grand design, rather than through successive incrementally priced 
awards--each of which experienced cost increases, delays, and 
performance issues.
    \20\ FAA's AMS lacks sufficient guidance on practices that could 
minimize mistakes associated with acquisition planning, such as using 
modular contracting to award information technology contracts in 
incremental, workable segments; and using contract line items, with 
separate pricing, contract types, and deliverables, to better manage 
the acquisition.
---------------------------------------------------------------------------
    Second, FAA did not take sufficient steps to assess and mitigate 
risk factors we identified on a previous significant contract when 
selecting a bidder and awarding the new contract, potentially resulting 
in increased costs to the Agency. In 2015, FAA decided to award a $727 
million new Controller Training Contract (CTC), without first 
addressing longstanding issues we reported with its prior controller 
training contract, the $859 million Air Traffic Control Optimum 
Training Solution (ATCOTS) contract. Specifically, in 2013, we reported 
that before awarding ATCOTS, FAA determined there was a 60- to 80-
percent likelihood that the successful bidder would not meet FAA's 
training needs with the limited staff hours proposed.\21\ However, FAA 
did not require the contractor to address this issue prior to award and 
had to spend millions of dollars more than expected to make up for the 
shortfall in contracted resources. We made 10 recommendations in 2013 
to improve FAA's management and oversight of the ATCOTS contract. We 
recently reported that while FAA addressed recommendations related to 
contract administration practices and oversight, it has not implemented 
those related to better defining training requirements and validating 
training costs. \22\ These recommendations were designed to improve 
FAA's ability to develop a comprehensive understanding of its training 
needs and, in turn, a more reliable estimate of the Agency's training 
costs. Because FAA awarded CTC without fully addressing these 
recommendations, it may encounter many of the same issues that 
compromised the success of the ATCOTS contract.
---------------------------------------------------------------------------
    \21\ FAA Needs To Improve ATCOTS Contract Management To Achieve Its 
Air Traffic Controller Training Goals, (OIG Report Number ZA-2014-018) 
December 18, 2013.
    \22\ FAA Has Not Sufficiently Addressed Key Weaknesses Related to 
Its ATCOTS Contract (OIG Report Number ZA-2016-010), December 10, 2015.
---------------------------------------------------------------------------
Developing and Sustaining an Effective and Skilled DOT Workforce
    Maintaining an effective and skilled workforce is critical to 
ensuring a safe and vibrant transportation system. This means 
identifying and hiring the right number of staff with the requisite 
skill mix; adapting hiring and training practices to account for 
changing missions, requirements, and workforce demographics; and 
implementing policies and procedures that promote employees' success 
and ability to carry out DOT's mission effectively.
    However, DOT agencies have not always taken adequate actions to 
ensure a robust workforce. For example, FAA lacks a comprehensive 
process for determining staffing levels needed to oversee its 
Organization Designation Authorization (ODA) program--a program that 
allows FAA to delegate certain functions, such as certifying aircraft 
components, to manufacturers and other organizations. Although FAA uses 
a staffing model to help identify overall ODA staffing needs, the model 
does not include detailed data on important workload drivers, such as a 
company's size and location, type of work performed, past performance, 
and project complexity and volume. In addition, FAA does not have the 
data or an effective model to accurately identify how many air traffic 
controllers it needs to maintain efficiency without compromising 
safety. Therefore, as we recently reported, many of FAA's busiest and 
most complex air traffic control facilities have a shortage of fully 
trained controllers.\23\ We have an ongoing audit to examine FAA's new 
controller hiring process and the changes that have occurred since its 
implementation in 2014.
---------------------------------------------------------------------------
    \23\ FAA Continues to Face Challenges in Ensuring Enough Fully 
Trained Controllers at Critical Facilities, (OIG Report Number AV-2016-
014), January 11, 2016.
---------------------------------------------------------------------------
    My office has made a number of recommendations to help DOT ensure 
its employees keep abreast of changing technology and missions. Now, 
agencies must follow through on actions planned in response to these 
recommendations. For example, in 2011 we found that NHTSA's ODI did not 
have a formal training program to help develop its current and future 
workforce to promote continuity of institutional knowledge. In 2015, 
NHTSA provided us a workforce assessment that evaluated its staffing 
and training needs for ODI. NHTSA must now fully implement the results 
of the workforce assessment to help inform future decisions on the 
resources required for this critical mission. Similarly, we found in 
2014 that FHWA had not conducted a comprehensive assessment of MAP-21's 
impact on its workforce--despite the significant structural changes the 
act brought about, such as consolidation of several FHWA programs. FHWA 
has since completed an assessment that recognizes the Agency's need to 
make changes to the way it does business and deploys staff to meet MAP-
21 requirements and carry out its mission effectively.
    Changes in workforce demographics also present unique challenges 
for DOT. For example, 22 percent of DOT's acquisition workforce was 
retirement-eligible in fiscal year 2015, heightening the need for 
improved compliance with contracting officer (CO) training and 
experience requirements across all DOT agencies.\24\ DOT's acquisition 
workforce is composed of hundreds of COs, CO representatives, and other 
supporting staff who provide agencies with the goods and services 
required to accomplish their mission at the best value to 
taxpayers.\25\ While DOT has several training improvement initiatives 
under way for its acquisition workforce, our 2015 review found that it 
still needs to clarify and enforce its policies governing certification 
and warrant authority for COs.\26\ Of the 63 COs we reviewed, 15 (24 
percent) did not fully comply with DOT requirements. For example, 10 
COs' certifications had expired, yet they continued to approve over 
3,000 contract actions and obligate over $731 million. While DOT 
recently revised its acquisition workforce policy in response to our 
report, full implementation of our recommendations and enforcement of 
these policies will be critical to ensure that COs have the appropriate 
training, experience, and certification to award and administer DOT's 
complex, high-dollar acquisitions.
---------------------------------------------------------------------------
    \24\ FAA is excluded from these data and the scope of our work 
described in this paragraph because Congress exempted FAA from Federal 
acquisition laws and regulations in DOT's fiscal year 1996 
Appropriations Act. Congress provided FAA with broad authority to 
develop its own acquisition process. Under this authority, FAA 
developed the Acquisition Management System and a set of policies and 
guidance designed to address the unique needs of the Agency.
    \25\ COs are Government employees who can bind the Federal 
Government to a contract. COs are responsible for ensuring performance 
of all necessary actions for effective contracting, ensuring compliance 
with the terms of the contract, and safeguarding the interests of the 
United States in its contractual relationships. Contracting Officer 
Representatives (COR) are Government employees responsible for 
monitoring the contractor's progress in fulfilling the technical 
requirements specified in the contract. For example, CORs maintain 
administration records, approve invoices and perform quarterly 
monitoring reports to confirm the contractor is meeting the terms and 
conditions under the contract.
    \26\ Some Deficiencies Exist in DOT's Enforcement and Oversight of 
Certification and Warrant Authority for Its Contracting Officers (OIG 
Report Number ZA-2015-041), April 9, 2015.
---------------------------------------------------------------------------
              enhancing dot's it security and preparedness
    Attacks on public and private sector information systems, carried 
out by increasingly well-funded and organized hackers, pose a 
continuous threat to the more than 450 information systems DOT uses to 
conduct business and operate some of the Nation's most critical 
transportation systems. While DOT has made progress in protecting its 
information systems, many remain vulnerable to compromise, underscoring 
the need for more effective contingency planning, and aggressive 
deterrence of insider threats.
Protecting DOT's Information Systems From Increasing Threats
    DOT continues to face longstanding cybersecurity vulnerabilities 
and must take corrective actions to address identified weaknesses that 
pose threats to its information systems. To its credit, DOT has made 
major progress in implementing the required use of Personal 
Identification Verification (PIV) cards \27\ for all DOT employees and 
contractors--a key step in securing access to DOT facilities and 
systems. DOT reported issuing PIV cards to 100 percent of its 
employees, and 98.3 percent have been configured for use in accessing 
networks--an increase of 74.5 percent from last year.
---------------------------------------------------------------------------
    \27\ A PIV card is a smart card that contains the necessary data 
for the holder to be granted access to Federal facilities and 
information systems and assure appropriate levels of security for all 
applicable applications.
---------------------------------------------------------------------------
    However, DOT has been slow to take corrective actions to address 
many other cybersecurity weaknesses. To help reduce cybersecurity 
risks, OMB requires agencies to track identified weaknesses using plans 
of actions and milestones (POA&M). Yet, in 2015, DOT had a backlog of 
more than 3,800 POA&Ms, which included 21 unimplemented recommendations 
we have made. DOT also remains behind schedule in implementing 
recommendations we have made in our annual Federal Information Security 
Management Act (FISMA) reports and other IT-related audits.
    Many of our recommendations focus on key Administration priorities. 
For example, OMB requires agencies to implement continuous information 
system monitoring, which can provide near real-time security 
information to senior leaders, by 2017.\28\
---------------------------------------------------------------------------
    \28\ Continuous monitoring involves establishing processes and 
capabilities to provide near real-time security information to senior 
leaders.
---------------------------------------------------------------------------
    However, DOT has not yet defined the practices or technologies that 
should be used or established common security controls \29\ to help 
protect its information systems, including high-value asset \30\ 
systems. Specifically, DOT is still conducting planning and research to 
determine the resources needed to ensure that common controls are 
properly used, implemented, and monitored. Until those are finalized, 
DOT remains vulnerable to more aggressive and complex cyber threats due 
to insufficient security controls.
---------------------------------------------------------------------------
    \29\ Necessary to meet requirements of the National Institute of 
Standards and Technology (NIST), common system security controls are 
controls that exist in one system that can be used to protect other 
systems.
    \30\ High-value assets are assets, systems, or datasets that may be 
considered ``high-value'' by the Department based on the following 
attributes--sensitivity of the information, uniqueness of the dataset, 
impact of loss or compromise, system dependencies, and systems that are 
integral to supporting critical department communications. A system is 
considered ``high impact'' if the loss of confidentiality, integrity, 
or availability for that system could be expected to have a severe or 
catastrophic adverse effect on organizational operations, 
organizational assets, or individuals.
---------------------------------------------------------------------------
Strengthening Contingency Plans and Security Protocols To Deter Insider 
        Threats
    We continue to find weaknesses in DOT's ability to plan for 
contingencies and recover from disruptions, even for critical systems. 
For example, our ongoing work has shown that several Operating 
Administrations did not conduct annual contingency plan testing for 
their selected mission critical or high- and moderate-impact systems to 
ensure they will work in the event of a disruption, as required.\31\ 
Specifically, 5 of the Department's 12 Operating Administrations did 
not comply with DOT policy to conduct such testing or meet all DOT 
requirements for their disaster recovery plans, potentially limiting 
their effectiveness at ensuring continuity of critical systems in the 
event of a malicious attack.
---------------------------------------------------------------------------
    \31\ Departmental Cybersecurity Compendium Supplement to DOT Order 
1351.37, ``Departmental Cybersecurity Policy,'' Version 3.0, September 
2013.
---------------------------------------------------------------------------
    The importance of effective contingency plans was demonstrated on 
September 26, 2014, when an FAA contract employee deliberately started 
a fire that destroyed critical telecommunications equipment at FAA's 
Chicago Air Route Traffic Control Center in Aurora, IL. As a result of 
the damage, Chicago Center was unable to control air traffic for more 
than 2 weeks,\32\ thousands of flights were delayed or cancelled, and 
aviation stakeholders and airlines reportedly lost over $350 million. 
While FAA completed comprehensive reviews of its contingency plans and 
security procedures following the Chicago Center incident, significant 
work remains to prevent or mitigate the impact of similar events in the 
future.
---------------------------------------------------------------------------
    \32\ Chicago Center's air traffic and airspace responsibilities 
were eventually transferred to other facilities, based on a 2008 
contingency plan and airspace map. This required extensive adjustments 
to ensure adequate radar and radio communication coverage.
---------------------------------------------------------------------------
    Notably, the event highlighted the need to enhance security and 
increase the flexibility and resiliency of the national air traffic 
control system. For example, FAA lacked the controls necessary to block 
access to a contract employee no longer assigned to this facility, 
thereby leaving the Center's high-value systems vulnerable to 
unauthorized access, disruption, and loss of information. Other insider 
threats pose significant threats to security, ranging from an employee 
who maliciously steals data to an employee who unwittingly opens 
infected email attachments. For example, in 2014, a DOT employee opened 
an infected email attachment and unleashed a serious computer virus 
(known as ``Dyre'') into DOT's network, compromising more than 5,000 
computers and resulting in loss of productivity, email interruptions, 
and data loss. The virus was designed to steal information (including 
passwords), avoid routine detection, and generate new emails with 
attachments to further spread the virus. While DOT reported that the 
virus has been mostly eradicated, it noted the need to better train 
employees to protect DOT's systems to lower the risk of system 
compromise.
                               conclusion
    The safe and efficient movement of people and goods is vital to our 
Nation's economic growth, global partnerships, and quality of life. The 
Department has clearly demonstrated its commitment to advance these 
priorities. To continue addressing the management issues we have 
identified as well as a changing transportation environment, it will be 
important for the Department to follow through with new safety 
standards and recommended actions, stronger financial and project 
controls over major investments, and vigilant security and preparedness 
measures.
    We remain committed to assisting DOT as it works to improve how it 
manages programs and resources and to our role in ensuring the greatest 
return on investment to taxpayers. I appreciate this Committee's 
continued support in the coming fiscal year to enable us to enhance our 
coverage of the Department's safety programs, high-dollar 
administrative and management assets, and information systems security.
    This concludes my prepared statement. I will be happy to answer any 
questions you or other Members of the Subcommittee may have.

                             CYBERSECURITY

    Senator Collins. Thank you very much.
    I was very pleased that you mentioned cybersecurity and the 
vulnerabilities there. What is your assessment of the 
vulnerabilities and risk to critical infrastructure that is 
part of the Department of Transportation?
    Mr. Scovel. Thanks for the question.
    We are very concerned. It remains a significant 
vulnerability for DOT as it does for virtually every other 
agency across all of government. It is a threat that seems to 
grow by leaps and bounds. And despite the best efforts of the 
cybersecurity officials in DOT as well as other units of the 
Government, it is almost as if they are being overtaken by the 
threat and by technology itself.
    As you know, we are required to conduct a Department-wide 
survey, if you will, of information security management every 
year. We have found that, in the past year, DOT made 
significant progress, as I mentioned, in the use of PIV cards, 
requiring PIV cards, which, when they are fully implemented 
across the board, will be essential not only for facility 
access, physical security, if you will, but also for what the 
techies call logical access. They can be used to gain access to 
particular security or computer programs.
    On the other hand, where the Department has struggled is in 
implementing its plan of action and milestones (POA&Ms). They 
are plans of action and milestones to address critical 
vulnerabilities.
    In fiscal year 2014, DOT had about 5,600 POA&Ms on the 
books. By the end of fiscal year 2015, they had reduced that 
number to about 3,200, so they had made some progress.
    But those that remain constitute significant tough nuts, in 
our opinion, to crack. Many of those POA&Ms do not yet have 
start dates assigned to them. The Department has not yet been 
able to even estimate the remediation costs in order to 
implement those.
    I mentioned in my prepared statement continuous monitoring, 
which is a top priority across all of government, so that 
senior officials can understand on a real-time basis when 
threats are appearing and what immediate action they may be 
able to take to deal with them.
    In order to make progress on that, the Department has to 
identify those key nodes across all of DOT's cyberspace, so 
that if there are places where a single, common system security 
control can be effective, it can be placed at that one place, 
and it can have a ripple effect for security across the board.
    Just very quickly, and I have talked a long time on this, 
because, as you know, it is a significant problem. DOT has 
about 200 critical systems out of the 463 on the books; 163 of 
those belong to FAA. DOT understands it needs to prioritize its 
cybersecurity efforts to protect those most critical systems 
through the means that I mentioned, the POA&Ms, the continuous 
monitoring, and the common system security controls.

                         CYBERSECURITY--NEXTGEN

    Senator Collins. That was an excellent answer, and I very 
much appreciate the thoroughness. This has been a major concern 
of mine.
    Do you think that the NextGen system, which we are 
installing for air traffic control, will help decrease the 
vulnerability of our air traffic system to a cyber attack?
    Mr. Scovel. Madam Chairman, it will help in some respects, 
but in other respects, the NextGen systems themselves may be 
vulnerable. We have undertaken some testing of some of the 
systems, ADS-B (Automatic Dependence Broadcast System) and 
others. We have concerns about those.
    I am not at liberty in an open forum to discuss those, 
because our reports have been properly deemed, after review by 
the Department, to constitute sensitive security information. 
We have spoken with your staff on some of those matters in the 
past. We would be happy to come over and in a closed setting 
discuss them with you in more detail.

                  SEXUAL ASSAULT AND SEXUAL HARASSMENT

    Senator Collins. Thank you very much. This is an issue that 
I continue to pursue from my seat on the Intelligence Committee 
as well.
    I want to follow up on a question that Senator Reed asked 
the Secretary, and that has to do with sexual assault at the 
U.S. Merchant Marine Academy.
    The Department's most recent report on the academy shows 
that the level of sexual assault and harassment remains 
unacceptably high. There continues to be a large discrepancy in 
the number of sexual assaults that are officially reported and 
the responses to the anonymous survey. That is very troubling 
because it implies that the midshipmen women still do not have 
the trust and faith in the academy's leadership to report 
incidents when they occur, whether it is on campus or at sea.
    What recommendations do you have for how we can change the 
underlying cultural attitudes that the Secretary referred to 
that appear to either turn a blind eye to or in some ways not 
really condone but do not forcefully act on such a disturbing 
level of sexual assault and harassment at the academy?
    Mr. Scovel. Madam Chairman, this is a most disturbing 
problem. You and I and Senator Murray have had discussions on 
this in the past, and I greatly appreciate your interest and 
concern on behalf of the students at the Merchant Marine 
Academy. I think the ranking member is exactly right when he 
pointed out earlier, in questions to the Secretary, his 
observations concerning his experience at West Point and 
elsewhere in the military, Senator.
    But when a critical mass is achieved in the student body 
and even more particularly, in the administration leadership at 
the academy itself, things can change.
    Obviously, as inspector general, I am not in a position to 
influence that, but where we have brought our forces to bear, 
on, that is, with the assistance and at the request of this 
committee and others, to take a look at what the school and the 
Maritime Administration have done, what they have planned, what 
other recommendations for improvement we might be able to make 
to them.
    We did that in the 2014 report. We furnished them nine 
recommendations at the time. After close scrutiny, my staff 
concluded that the recommended actions had all been taken by 
the academy administration, so we were able to close all nine 
of our recommendations from the 2014 report.
    At about the same time, the academy, much to its credit, 
embarked on its own action plan, 44 steps across six or seven 
different phases that they intended to carry out in order to 
make concrete progress on building the trust and confidence 
that you mentioned is necessary on behalf of students.
    They closed their action plan in 2015 without having 
completed all 44 items that constituted the plan. They left--
not unaccounted for, but unresolved, at least to our 
satisfaction--a handful. I think it was seven, to be specific.
    But we are continuing our discussions. At the committee's 
request, we have been asked to examine the academy's actions on 
that action plan and see if it meets with our approval, at 
least. We are continuing those discussions. We are going to 
have further meetings over the next month or so on the 
remaining seven. We will be in a position at that point to come 
and discuss with the staff and you, if you wish, how we feel on 
the academy's progress.
    You mentioned earlier, and it has come up, but I would like 
to mention it too, because it is a concern for me, and I have 
emphasized with our staff--that is, a look at the academy's 
action plan, however good it may appear to be for 
implementation on the grounds at King's Point. There are 
anywhere from 8 to 12 months of an academic year when students 
go out in very small groups and are at sea for extended periods 
of time and put into port in places that are much different 
culturally and, frankly, can get wild. We can all use our 
imaginations on things like that.
    Those are opportunities for young people, male or female, 
to be vulnerable and to find themselves in trouble. So the 
Academy's action plan needs to really get at that specific 
point in order to have a fighting chance of getting trust and 
confidence back among the students.
    Senator Collins. Thank you.
    Senator Reed.

                          HAZARDOUS MATERIALS

    Senator Reed. Thank you very much, Madam Chairman.
    And thank you, Mr. Scovel. Obviously, we take your reports 
very seriously, since we have used it for significant questions 
of the Secretary.
    Again, going back to your report on hazardous materials 
transportation, one aspect of the report was a finding that 
many cases merit referral to your office for actual criminal 
investigation. Can you provide some examples of those types of 
cases?
    Mr. Scovel. I can. I will be happy to.
    Just to review it a little bit, and I will try to do it 
quickly, a couple years ago, I was on a field visit to one of 
our investigative field offices in Florida. And I spoke with 
one of our agents there who reported that in her 15-year career 
or so with our Office of Inspector General, she had received 
criminal referrals from virtually every other operating 
administration in the Department except for FRA. She was 
disturbed by that.
    That got my attention. I came back to headquarters. We had 
on our planning schedule a look at FRA hazmat procedures, and I 
asked them to put in a specific objective to examine this 
question of criminal referrals. So we were able to tackle that.
    I can say that in the cases that we looked at, and there 
were 75 between fiscal year 2010 and fiscal year 2014, we had 
received zero criminal referrals from FRA. We found, however, 
that there were instances of those 75--23 percent, as we looked 
at it through both auditors' and investigators' eyes, should 
have merited some attention from my staff, trained criminal 
investigators. So those were 17 out of the 75 cases.
    A couple of examples. One company produced valves that had 
not been put through a required design approval process. Those 
valves later caused leaks on tank cars carrying hazardous 
materials. FRA chose to pursue civil penalties against that 
company and in March 2015 released a rail worthiness directive 
on valve replacement, but never referred the case to our office 
for criminal investigation.
    Another example. A different company released overweight 
tank cars for use several times without rectifying the weight 
problems and after they had been certified by that company as 
underweight. These circumstances indicate possible false 
statements by a repeat violator, but FRA did not refer that 
case to our office for criminal investigation either.
    A final example. Another company may have made a false 
statement when it did not include in a bill of lading the 
radioactive containers located on a flat railcar on the train, 
but FRA again did not refer the matter to our office.
    Senator Reed, we have heard from every single other 
operating administration in the Department, including even the 
St. Lawrence Seaway Development Corporation, in those years, 
2010 through 2014. Even St. Lawrence Seaway referred a criminal 
matter to us.
    We have had zero from FRA, whether it was safety related or 
whether it was potentially grant-fraud related. As you know, 
FRA has significant oversight responsibility now for high-speed 
rail grants.
    So we have embarked on a concerted effort, and I know we 
have the support and attention of the Department's highest 
leadership as well as FRA itself, in order to turn that around, 
without using every tool in the toolbox--which includes not 
only civil penalties to FRA's leadership but also criminal 
investigations, when properly warranted. It amounts to what I 
call partial disarmament on the part of the safety regulator. 
That is most disturbing. I would like to see it corrected.

                          CRIMINAL VIOLATIONS

    Senator Reed. Let me just follow up with a question. This 
is for my benefit as much is anybody else.
    The procedure in the Department is that an agency would 
submit a potential criminal violation to your office. You would 
investigate it, and then you would submit it to the Federal 
Bureau of Investigation (FBI) or the Federal attorney? What is 
the stop out of your office?
    Mr. Scovel. Thanks. We would take it to the assistant U.S. 
attorney, to the U.S. attorney in the district where the 
alleged violation occurred.
    Quite honestly, they have their own priorities, as I am 
sure you understand. Counterterrorism and public corruption 
these days are number one on the list for FBI and Department of 
Justice attention. So matters like this can sometimes be 
difficult for us to attract attention. But with safety cases, 
particularly where the potential for grievous effects is 
significant, depending on when and where, we can often get 
Department of Justice cooperation.
    Senator Reed. So it is not like that FRA is going directly 
to the Federal level. They have to go through you. They are not 
going through you.
    Mr. Scovel. Yes. This is in contravention I should say, 
too, of Department orders that are very specific--that when 
possible criminal activity comes to the attention of any of the 
modes, they are to refer it to the Office of Inspector General.

                          ADDITIONAL RESOURCES

    Senator Reed. Thank you. Just a final question on that, the 
administration submits a budget for your office and you submit 
a budget for your office. And we have to sort of parse it.
    You are requesting additional resources from the 
administration's budget, including 25 additional full-time 
equivalent (FTE) positions, I believe. First of all, again, we 
appreciate the work you are doing and the work is increasing, I 
am sure. But can you explain how you are going to use this 
additional staff, and why you need it?
    Mr. Scovel. I would be happy to, and thank you for the 
question. I have some notes, and if you will bear with me, I 
want to be careful in how I say this because we, of course, 
have had communications with the Department and with OMB as 
well as others on the Hill here already, and I want to make 
sure I am consistent.
    Senator Reed. Yes, sir.
    Mr. Scovel. We have always appreciated it, at DOT OIG, this 
committee's, and your colleagues' committees over on the House 
side, concern and interest in and support across all the years. 
I have been the inspector general for a little over 9 years, 
and it has been magnificent.
    Here is where we stand now. OIG's budget request to OMB was 
$93.6 million in support of an estimated 422 career level FTEs. 
The President's budget request is for $90.2 million in support 
of an estimated 397 career level FTEs. That would be sufficient 
as well for 13 student and expert FTEs.
    We do appreciate that the President's budget is intended to 
help us move in the right direction. But I consider myself duty 
bound to advise you, and now that you have asked, we have 
advised OMB in our original budget request, the 25 additional 
FTEs we originally requested is the number of staff that would 
enable us to fully execute our mission focusing on safety 
across all transportation modes while continuing to identify 
cost-saving opportunities and making recommendations to improve 
program efficiency and effectiveness. Operating below OIG's 
requested level puts at risk our ability to provide full and 
effective oversight of expanding DOT programs.
    I submit that based on our office's record for many years 
now, whatever appropriated dollars are sent our way, we make 
tremendous use of. A traditional measure in the accountability 
community is called return on investment. In 2015, our return 
on investment was 32-to-1; for each single appropriated dollar, 
we were able to return financial recoveries to the Government 
of $32. For the 5 years prior to that, it was 29-to-1. So that 
puts us really among the top tier of Federal Offices of 
Inspector General.
    The resources we have requested for 2017 we believe are 
necessary to enable us to provide critical audit and 
investigative support of aviation and surface safety issues. We 
plan to sharpen our focus on administrative, management, and 
procurement programs with significant budget and information 
security impacts.
    We need to maintain certain technical capabilities needed 
to conduct increasingly complex audits and investigations.
    And we are also overdue, since we are talking about 
cybersecurity, to take measures to reinforce our own IT 
security posture.
    We also have significant new oversight responsibilities, 
and we welcome them, that have been associated and handed to us 
through the FAST Act, the Digital Accountability and 
Transparency Act (DATA Act), the Grants Oversight and New 
Efficiency Act (GONE Act), and the Surface Transportation Board 
(STB) Reauthorization Act.
    Full funding would enable us to, most importantly, cover 
the increasing personnel costs that are largely outside of our 
control and that have left us with insufficient funds to 
support our full allotment of career level FTEs.
    Sir, 75 percent of OIG's budget goes to payroll, if you 
will. Much of the balance of that 25 percent is for expenses 
over which we have no control--rent and the Department's own 
working capital fund.
    I will close by thanking you and the chairman and all 
members of the committee for your consistent concern and 
support for our mission. I well recognize that every government 
agency these days operates in a financially constrained 
environment. And I pledge to you that no matter what the final 
decision may be for our office's appropriation, we will do all 
we can with all we have, and my staff sitting behind me has 
heard me utter those exact words in all-hands meetings and 
everything else. We will always do all we can with what we have 
to support the Secretary and the Congress.
    Senator Reed. Thank you.
    If I can make just one brief comment, the chairman has been 
very thoughtful about including the inspector general in these 
hearings, and the HUD inspector general has made the same basic 
comments about IT security, which is a multibillion-dollar, 
government-wide sort of cost that is recognized but not funded. 
We were commenting about that after he left.
    So we have to do some thinking I think. Thank you, Madam 
Chair.
    Mr. Scovel. Thank you, sir.
    Senator Collins. I certainly agree with the ranking member 
in that regard.
    Mr. Inspector General, I want to thank you so much, not 
only for your excellent testimony today. I was impressed, since 
we gave you know warning that I was going to ask you about 
cybersecurity, how extremely on top of that issue that you are, 
which I think is appropriate because I do believe it is one of 
the greatest vulnerabilities that we have facing our critical 
infrastructure and one that we have done the least to truly 
deal with in a serious way.
    But I am always very impressed when I meet with you, have 
discussions with you, or hear you testify. So my thanks to you 
and your office and dedicated employees who are working hard to 
make sure the Department is as efficient as possible.

                     ADDITIONAL COMMITTEE QUESTIONS

     The hearing record will remain open, as I indicated, until 
next Friday, March 25. Undoubtedly, additional questions will 
be submitted to you for the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department subsequent to the hearing:]
            Questions Submitted by Senator Susan M. Collins
    Question. The Department recently announced the seven finalists for 
the Smart City Challenge, which is intended to provide $40 million over 
3 years to a medium-sized city for deployment of intelligent 
technologies. These may include technologies such as autonomous 
vehicles, urban automation, sensor-based infrastructure, and electric 
vehicle fleets to help reduce congestion and provide innovative 
solutions for safety and mobility.
    Mr. Secretary, given the limited amount of funding available for 
research and technology, does it really make sense to spend a 
substantial amount of money on only one city?
    Answer. On December 2015 USDOT issued a Notice of Funding 
Opportunity challenging medium-sized cities to solve tomorrow's 
transportation challenges using technology and innovation. The 
overwhelming response surprised us. Seventy-eight medium-sized cities 
from across the country--from Portland to Providence and from Anchorage 
to Albuquerque--submitted thirty-page vision proposals.
    We intend to offer one city $40 million because a substantial 
amount of money focused on one city has the potential to (1) be more 
effective in getting the attention of medium-sized cites, (2) inspire 
cities to use 21st century technology and innovation to solve 
tomorrow's transportation challenges, (3) produce solutions that are 
replicable in other medium-sized cities, (4) make the United States the 
leader in the development of smart city transportation solutions, (5) 
be enough money to create a demonstration that will make an impact in a 
medium-sized city, (6) encourage universities, foundations, NGOs to 
help these cities look to the 21st century solutions, and (7) be 
sufficient to attract technology companies to form partnerships with 
the seven finalists. While only one city will win, the Smart City 
Challenge started a conversation in seventy-eight cities that has the 
potential of changing how they look at transportation.
    Question. As I mentioned in my opening statement, I am frustrated 
the Department continues to use the same old gimmicks we have seen in 
the past, shifting programs from discretionary to mandatory. The budget 
proposal, excluding funding for Amtrak, includes $4.1 billion in 
proposed mandatory spending for ``High-Performance Rail'' all the while 
we have the Railroad Rehabilitation and Improvement Financing Program 
with nearly $33 billion in available loan assistance sitting 
unobligated.
    The fiscal year 2016 omnibus provided nearly $2 million to the 
Federal Railroad Administration to support short line railroads with 
costs associated with RRIF loan applications. Additionally, the FAST 
Act included reforms to RRIF to make the program more accessible.
    Mr. Secretary, how does the Department plan to use the funds 
provided in fiscal year 2016 and given the changes made by the FAST Act 
what concrete steps are you taking to get RRIF funding out the door?
    Answer. As directed by the fiscal year 2016 Consolidated 
Appropriations Act, the Department intends to use the $1.96 million 
appropriated under Section 152 of Division L of the Act to assist Class 
II and Class III railroads in lowering costs related to applying for a 
loan under the Railroad Rehabilitation and Improvement Financing (RRIF) 
Program. Specifically, these funds will be made available for applicant 
expenses in preparing to apply and applying for direct loans and loan 
guarantees. The Department is currently developing guidance to define 
how these funds will be made available to eligible applicants to defray 
costs, ensure efficient application processing, and achieve loan 
closing.
    Increasing access to and usage of the RRIF Program is a top 
priority of the Department. The program can play an important role in 
advancing major infrastructure projects and assisting potential 
borrowers in completing smaller infrastructure, equipment, and 
refinancing projects that play a vital role in the borrowers' 
operations and the overall performance of the rail network. Prior to 
the enactment of the FAST Act, the Department had implemented process 
improvements to increase stakeholder outreach, provide technical 
assistance to prospective borrowers, and improve the efficiency of the 
loan application process. In 2015, the FRA completed the same number of 
loans--two--as the previous 3 years combined.
    The FAST Act contains several provisions intended to further 
streamline the loan approval process, increase applicant eligibility, 
and fund a wider array of projects.
    The FAST Act also established the National Surface Transportation 
and Innovative Finance Bureau (Bureau) within DOT. The Department is in 
the process of establishing the Bureau to help consolidate outreach/
coordination of DOT credit programs, process applications more 
efficiently, provide technical assistance, and communicate best 
practices regarding DOT financing and funding opportunities.
    Question. Last fall, Administrator Huerta testified before this 
subcommittee on how to successfully integrate unmanned aircraft systems 
into our Nation's airspace. Given the rise in the number of U.A.S. 
sightings near our Nation's airports, I remain concerned about the 
threat posed by potential interference with airport operations. Mr. 
Secretary, what is the F.A.A. doing to address this alarming growth in 
``close calls'' of U.A.S. near airports?
    Answer. As of December 21, 2015, everyone who flies a UAS that 
weighs more than 0.55 pounds and less than 55 pounds outdoors must 
register using the FAA's new online registration system. Before 
completing registration, registrants must acknowledge safety 
guidelines, which include restrictions and requirements for flying near 
airports. As of the end of March, over 415,000 operators have 
registered.
    Registration is a key component of the FAA's education efforts, 
which also include the No Drone Zone campaign, the B4UFLY smartphone 
app, and providing airports with educational public service 
announcements to display in their terminals.
    Recognizing that education has its limits, the FAA is also working 
with interagency partners to evaluate UAS detection technology in the 
vicinity of airports. As part of the FAA's Pathfinder program, testing 
of a detection system developed by CACI International was completed at 
the Atlantic City International Airport in February 2016. A total of 
141 tests were conducted--72 with a UAS on the ground and 69 with 
different, small UAS in flight. Engineers from the FAA, CACI, and the 
Department of Homeland Security will develop a final report of findings 
by August 2016.
    The FAA pursues enforcement action against the operator where 
unsafe or unauthorized UAS operations occur that have a medium to high 
impact to the safety of the National Airspace System (NAS), where the 
operator is intentionally non-compliant, or where the case involves 
repeat violations. Enforcement action can take the form of a civil 
penalty or a certificate action if the operator holds an FAA issued 
certificate. If criminal statutes are implicated, the FAA also works 
with our law enforcement partners in prosecuting those cases.
    Question. I have been outspoken about the need to improve the 
safety of our rail network, not just on the larger Class One railroads, 
but also on the ``short lines.'' Maine has no Class One railroads. 
Therefore, short lines play an integral role in connecting goods to our 
citizens. In order to address their unique needs, Congress provided 
funding in fiscal years 2015 and 2016 to assist the short lines in 
building a stronger, sustainable safety culture through the 
establishment of the Short Line Safety Institute. The Short Line Safety 
Institute recently hired an Executive Director and last year began 
conducting safety culture assessments at several short line railroads 
across the country. How is the Department using feedback from these 
assessments as it works with the Institute on the development of 
training, education, and recommendations to improve the safety 
performance of short lines?
    Answer. The Short Line Safety Institute's (Institute) primary goals 
are to enhance and improve safety practices and to increase the short 
line and regional railroad industry's culture of commitment to safety 
through assessing their safety culture, recommending how to improve it, 
and providing leadership, training, and education about safety culture 
and conformance. The Institute will accomplish these goals through Four 
Pillars of activities:
    (1)  Safety Culture Assessment: Conducting voluntary, non-punitive, 
        confidential safety culture assessments (initially focused on 
        railroads that transport crude oil);
    (2)  Education & Training: Serving as a long-term training and 
        education resource for short line and regional railroads; 
        providing resources, based on industry ``best practices'', for 
        strengthening railroad safety culture;
    (3)  Research & Evaluation: Serving as a research center that 
        compiles and disseminates information on safety needs and 
        trends within the short line and regional railroad industry 
        (e.g., assessing education/training needs, identifying 
        communications gaps, and analyzing safety metrics over time); 
        and
    (4)   Strategic Communications: Disseminating timely information to 
        industry stakeholders about the Institute's mission and vision 
        and providing guidance on how to communicate internally and 
        externally about safety culture improvement efforts 
        stakeholders may undertake at their properties.
    After a safety culture assessment, assessors synthesize information 
collected from multiple methods (interview, document review, 
observation, survey) from employees across all levels of the short line 
railroad. In addition to providing individualized feedback to the 
railroads assessed, the assessments are also used to identify industry-
wide gaps in safety culture knowledge. The Institute will address these 
gaps with training, webinars, conferences, and other strategic 
education and communication efforts. As a result, the Institute will 
provide short line and regional railroads with the tools needed to 
drive safety culture change.
    FRA is partnering with the American Short Line and Regional 
Railroad Association (ASLRRA) and the Institute in this effort, 
providing continuing support to the Institute as it strives to improve 
safety and safety culture in the short line industry. FRA's Office of 
Research & Development continues to work closely with ASLRRA, Volpe 
National Transportation Systems Center, and the University of 
Connecticut to ensure the Institute's processes and procedures are 
evaluated for effectiveness and based on scientific rigor.
    Question. We continue to hear aviation stakeholders question the 
F.A.A.'s ability to implement NextGen. We have spent approximately $6 
billion on NextGen to date, but passengers, shippers, and aircraft 
operators have realized few benefits. This lack of progress seems to be 
one of the main arguments driving the push for significant changes to 
F.A.A.'s structure. Surely by now the aviation industry is seeing 
benefits from the billions of dollars this committee has provided. Can 
you tell us what progress F.A.A. has made on NextGen?
    Answer. Passengers and operators benefit from NextGen in multiple 
ways, by flying on more direct paths to their destinations with fewer 
delays. NextGen benefits include fewer carbon emissions, contributing 
to a greener environment.
    Nationwide, the FAA has measured $1.6 billion in benefits to 
airlines and the traveling public from NextGen capabilities already in 
place since 2010 through 2014. Over the next 15 years, NextGen will 
produce an additional $11.7 billion in benefits from those 
improvements. Once all currently planned programs are in place, the FAA 
expects NextGen to deliver $134 billion in direct airline, industry, 
and passenger benefits through 2030. The benefits were based on the 
fiscal year 2014 Business Case for the Next Generation Air 
Transportation System.
    Last year, the FAA completed deployment of the En Route Automation 
Modernization (ERAM) system, in all FAA Centers in the continental 
United States. The system is already processing information from the 
634 ground transceivers that comprise Automatic Dependent Surveillance-
Broadcast, ADS-B. In places such as Alaska and the Gulf of Mexico, our 
controllers can continuously track equipped aircraft, even though the 
nearest radar site might be several hundred miles away.
    The FAA is making flying more efficient. The Metroplex initiative 
has transformed the airspace around some of our busiest cities, 
replacing inefficient ground-based routes. We now have scores of new 
satellite-based air traffic procedures in Houston, North Texas, 
Charlotte, Washington, DC, and Northern California.
    The FAA has collaborated with the aviation industry through the 
NextGen Advisory Committee (NAC), a Federal advisory committee, to 
develop a plan to implement a number of high-priority NextGen 
capabilities in the areas of Multiple Runway Operations, Performance 
Based Navigation, Surface Operations, and Data Communications. To date, 
the FAA and industry have completed 42 NextGen Priorities commitments, 
introducing a wide range of benefits into the NAS.
    Question. In the fiscal year 2016 Omnibus bill, this Committee 
provided a substantial increase in resources to the National Highway 
Traffic Safety Administration for the Office of Defects Investigation. 
Given the dramatic increase in recalls and fines issued in recent 
years, ranging from fault GM ignition switches to Takata airbags, it 
was apparent NHTSA did not have sufficient engineers and resources to 
properly vet defect claims. The O.I.G. has issued several reports on 
NHTSA's inability to properly identify and address vehicle safety 
defects due to inadequate standards and procedures. I find it troubling 
that, according to the O.I.G., NHTSA has failed to consistently apply 
the recommendations from a 2011 report and lacks the mechanisms to 
ensure that staff consistently applies these recommendations. This 
finding from the O.I.G. makes me question whether the Department is 
truly making permanent changes as called for in I.G. reports for any of 
the agencies within DOT. Mr. Secretary, can you tell us how you, in the 
last few months of this Administration, will ensure the O.I.G. 
recommendations are taken seriously throughout the Department?
    Answer. NHTSA has performed a comprehensive review of its defects 
program. NHTSA's internal review and the review performed by the O.I.G. 
last year form the agency's roadmap for building a more effective and 
comprehensive defects program. NHTSA established an aggressive schedule 
to implement all of the O.I.G. recommendations, and the agency will 
meet its June 30, 2016 deadline. NHTSA has already initiated additional 
actions to address O.I.G.'s recent recommendations about establishing 
controls and procedures over the new policies.
    The Department, through its Office of Audit Relations and Program 
Improvement, recently initiated bi-monthly recommendation update 
meetings with each Operating Administration to discuss the status of 
every open recommendation. As of April 1, 2016, the Department had 547 
open recommendations. The OIG has closed 152 open recommendations, 
including 5of the 33 that it listed as high priority, based on actions 
taken by the Department to implement those recommendations. The 
potential savings of the closed recommendations total over $518 
million.
    My office is carefully monitoring and will continue to monitor 
NHTSA's and other DOT agencies' progress in meeting the benchmarks 
established by the O.I.G.
    Question. A local bus company in Maine has brought to my attention 
a troubling rulemaking issued by the Federal Motor Carrier Safety 
Administration, regarding ``bus lease-interchange''. This rule hurts 
operators who have a safe record but find themselves having to partner 
with other bus companies to provide service. For example, if bus 
company ``A'' breaks down on the side of the highway, full of 
passengers, then company ``A'' would have to find alternative service 
to get the passengers quickly and safely to their destination through a 
lease agreement with another company ``B''. This rule puts full burden 
of compliance and liability for company ``B'' on company ``A'', even 
though company ``B'' has DOT operating authority and its own safety 
record. This makes no sense if both companies have their own operating 
authority and are deemed safe by DOT. While the intent of this rule was 
to prevent unsafe carriers that attach themselves to reputable 
companies with DOT operating authority, the rule simply fails to do 
that. The very class of carriers that the rule was trying to go after 
would fall entirely outside of this final rule--in short, it really 
only hits the folks following the rules. The rule is detrimental to bus 
service providers across the country that regularly, and often without 
much notice, have to lease or charter additional service from other 
carriers. I am pleased to learn the Department delayed implementation 1 
year. Mr. Secretary, do I have your commitment to address these 
concerns before the end of this Administration?
    Answer. The Department acknowledges motor carriers of passengers' 
concerns about the Federal Motor Carrier Safety Administration's 
(FMCSA) 2015 final rule about the lease and interchange of buses. FMCSA 
received numerous petitions for reconsideration of the final rule and 
based upon a review of the petitions, determined that the compliance 
date should be extended to January 1, 2018 to provide sufficient time 
to address the issues raised by the petitioners. You have my commitment 
that FMCSA will issue a decision concerning each of the petitions for 
reconsideration by the end of the calendar year, and FMCSA anticipates 
publishing amendments to the final rule in the Federal Register for 
petitions which are granted, in early 2017.
                                 ______
                                 
              Questions Submitted by Senator Steve Daines
    Question. Secretary Foxx, the President's budget request is over 
$98 billion. That is more than $22 billion, nearly 30 percent, above 
last year's enacted amount. The Office of Inspector General (OIG) 
reported to the Commerce Committee in January that there were 569 open 
recommendations with nearly $2 billion in potential savings. What is 
DOT doing to expedite implementation of these recommendations?
    Answer. The Department, through its Office of Audit Relations and 
Program Improvement, recently initiated bi-monthly recommendation 
update meetings with each Operating Administration to discuss the 
status of every open recommendation. As of April 1, 2016, the 
Department had 547 open recommendations. The OIG has closed 152 
recommendations, including 5of the 33 that it listed as high priority, 
based on actions taken by the Department to implement those 
recommendations involving questioned costs and funds put to better use, 
as identified by the OIG, total over $518. The potential savings of the 
closed recommendations total over $518 million.
    Question. The single biggest savings is in Federal Aviation 
Administration (FAA) air traffic control (ATC) towers, totaling $853 
million. DOT's target action date is in July. What is DOT doing to 
expedite implementation of these ATC savings?
    Answer. The FAA concurred with OIG Report #ST-2015-080: Efficiency 
of FAA's Air Traffic Control Towers Ranges Widely. The FAA is in the 
process of performing a ``Deep Dive'' into the facilities outlined in 
the report in order to determine the root causes of the inefficiencies. 
This will allow the FAA to determine if, in the interim, these causes 
have been corrected or if there are actions that can be implemented to 
improve efficiencies. The FAA is working to deliver a response to the 
OIG by the end of May 2016 and to issue a final response and results, 
as applicable, by the end of July 2016.
    Question. Airports in Montana utilize the Federal Contract Tower 
(FCT) program. These towers account for approximately 28 percent of 
operations while only utilizing about 14 percent of funds. Would 
expanding the FCT program improve DOT's finances?
    Answer. The FAA does not believe that expanding the contract tower 
program would improve FAA's or DOT's finances at this time. The FAA 
currently has no plans to convert any FAA towers into contract towers. 
Any expansion of the program would therefore solely involve adding more 
non-Federal towers to the program, thus raising FAA's overall costs.
    Question. In addition to financial responsibility, maintaining a 
safe transportation network is critically important. When it comes to 
addressing behavioral safety issues, States agencies, not the Federal 
Government, have the best understanding of their individual challenges. 
One provision I was proud to champion in the Fixing America's Surface 
Transportation (FAST) Act was to qualify 24/7 sobriety programs for 
National Highway Traffic Safety Administration (NHTSA) safety grants. 
While implementing the FAST Act, how will DOT ensure States have the 
flexibility to institute safety programs that address their unique 
challenges?
    Answer. NHTSA encourages States to develop creative approaches to 
improve safety. The general approach is to allow States the maximum 
flexibility consistent with statutory language. With regard to the 
implementation of 24-7 sobriety program grants, NHTSA plans to use the 
statutory language in the FAST Act as the basis to determine those 
States eligible for a grant. Although the statute specifies certain 
requirements that must be met in order to receive a grant, we believe 
it affords room for flexibility for a State to tailor an approach to 
suit its needs while satisfying the requirements imposed under the 
statute.
    Question. The Amtrak's Empire Builder runs across Montana's Hi-
Line, providing much needed connectivity to 12 rural communities. 
Amtrak completed a feasibility study that concluded a stop in 
Culbertson, MT would have a net positive impact on Amtrak's finances. 
How will DOT facilitate coordination between the Federal Railroad 
Administration (FRA), Amtrak, and local stakeholders to help bring this 
service online?
    Answer. Amtrak's Long Distance routes, such as the Empire Builder, 
play a critical role in connecting the national rail network and 
provide a vital transportation alternative to communities throughout 
the country.
    As directed by the Senate's fiscal year 2016 Transportation and 
Housing and Urban Development Appropriations Bill report (Report 114-
75), FRA and Amtrak are in the process of re-evaluating a previous 
Amtrak feasibility study on adding a station stop along the Empire 
Builder route in Culbertson, MT. The Amtrak ``Passenger Rail in the 
Bakken Region'' study is due to the Appropriations Committee by 
December 18, 2016 and FRA and Amtrak are on track to meet this 
deadline. In addition to re-evaluating the revenue, ridership, and 
other operating cost metrics of the previous Amtrak study, the fiscal 
year 2016 Senate report language instructs FRA and Amtrak to also 
examine the capital infrastructure improvements that would be necessary 
to bring intercity passenger rail service to Culbertson, MT. FRA and 
Amtrak must communicate with local stakeholders and the host freight 
railroad, BNSF, to gather the resource and operational requirements 
needed to carry out the study.
    FRA is always available to provide technical assistance to States 
and local governments regarding rail issues. Depending on the results 
of the study and whether Federal funding will be sought for the capital 
improvements required to add a station stop, FRA may also play a more 
formal role in the environmental, engineering, and design processes to 
construct the local government's preferred station facilities.
    Question. Inspector General Scovel, the President's budget request 
is over $98 billion, more than $22 billion increase above last year. In 
a letter you sent to the Commerce Committee in January, you highlighted 
569 open recommendations with nearly $2 billion in potential savings if 
implemented. What is the status of these recommendations?
    Answer. Of the 569 open recommendations we identified as of 
December 31, 2015, 174 have since been closed and 395 remain open. 
Additionally, since January 2016, we have issued 40 audit reports 
containing 145 new recommendations, of which 135 remain open. 
Accordingly, as of April 26, 2016, there are a total of 530 open audit 
recommendations.
                             highway safety
    Question. In your testimony, you discussed recommendations for the 
National Highway Traffic Safety Administration (NHTSA). We discussed 
many of these recommendations, specifically the Office of Defects 
Investigation (ODI) recommendations, during a Commerce Committee 
hearing last June. What recommendations has NHTSA closed since our last 
meeting? Has NHTSA improved its stewardship of taxpayer resources?
    Answer. Since my testimony on June 23, 2015, we have closed 6 of 
the 17 recommendations we made to improve ODI's pre-investigative 
processes. More specifically:
  --Recommendation 6, which was closed on September 30, 2015, was aimed 
        at improving the quality of consumer complaint data and 
        enhancing ODI access to important data sources such as pictures 
        and accident reports. In response to our recommendation, ODI 
        enhanced safercar.gov to:
    --Provide definitions for affected parts \1\ to assist consumers in 
            appropriately categorizing their complaints,
---------------------------------------------------------------------------
    \1\ The online complaint submission form requires consumer to 
select up to 3 affected parts from a drop-down list of 18 options such 
as airbags, brakes, lighting, and powertrain.
---------------------------------------------------------------------------
    --Provide guidance to consumers on what sort of information to 
            include in their narrative descriptions of incidents and 
            their vehicles that would be most helpful to ODI in 
            identifying potential safety concerns, and
    --Allow consumers to upload up to 5 files while submitting their 
            complaints, and also encourage them to hold on to important 
            information such as police reports and photographs for at 
            least 5 years.
  --Recommendation 13, which was closed on October 30, 2015, was aimed 
        at documenting supervisory review throughout ODI's pre-
        investigative process including data screening.\2\ In response 
        to our recommendation, ODI implemented a process to conduct a 
        one-on-one meeting twice a month between each Defects 
        Assessment Division (DAD) screener and the DAD chief to discuss 
        all ongoing investigation proposals and issues. These meetings 
        will also include discussion of any limitations confronted by 
        screening staff, the need for future training, and staff 
        utilization. These meetings will serve as a platform for the 
        DAD chief to provide guidance to screeners. Additionally, ODI 
        developed a process to document these meetings and to store the 
        documentation within pertinent case files.
---------------------------------------------------------------------------
    \2\ ODI has two groups that are primarily involved with its pre-
investigation process: the Defects Assessment Division (DAD) and the 
Early Warning Division. OIG and ODI mutually agreed that ODI's process 
for supervising the Early Warning Division would be covered under its 
proposed action to close out recommendation 10.
---------------------------------------------------------------------------
  --Recommendation 15, which was closed on October 30, 2015, was aimed 
        at developing and implementing guidance on the amount and type 
        of information needed to determine whether to open an 
        investigation. In response to our recommendation, ODI developed 
        risk assessment matrices that take into account the frequency 
        and hazard levels associated with a potential safety defect. 
        ODI guidance defines the specific information needed to 
        populate the matrices, describes how that information is 
        evaluated, and sets forth specific standards for when an 
        investigation must be opened. The matrix groups issues into 
        red, yellow and green--red suggesting that an investigation 
        should be opened, yellow suggesting that more information is 
        required to make a call, and green suggesting a low hazard. ODI 
        also identified a plan to develop matrices in 11 areas that 
        present the highest risk to safety such as cyber-security, 
        brakes, and air bags by April 30, 2016.
  --Recommendation 17, which was closed on November 30, 2015, was aimed 
        at documenting and establishing a process for enforcing 
        timeframes to determine whether to open investigations and to 
        establish a process for documenting justifications for these 
        decisions. In response, ODI developed a process to ensure:
    --All investigation proposals will be reviewed and dispositioned by 
            the appropriate investigative division within 6 weeks of 
            initial transmittal. Additionally, if an investigation 
            division chief does not make a decision on an investigation 
            proposal in the prescribed 6-week timeframe, it will 
            automatically be forwarded to the Defects Assessment Panel 
            for consideration.
    --Compliance with the 6-week standard and the justifications for 
            opening investigations will be documented in ARTEMIS 
            through internal e-mails, defect assessment panel meeting 
            minutes, preliminary evaluation opening resumes, and 
            evaluations.
    --Justification for declining to investigate must reference either 
            an applicable risk assessment matrix (see recommendation 15 
            above) or a detailed explanation of why the elements of a 
            potential safety defect do not exist. The justifications 
            will be documented in ARTEMIS.
    --Timely dispositioning of issues will be factored into division 
            chief and ODI director's performance.
  --Recommendation 3, which was closed on March 31, 2016, was aimed at 
        requiring manufacturers to develop and adhere to procedures for 
        complying with early warning reporting requirements, and 
        require ODI to review these procedures periodically. In 
        response, ODI sent a notice to auto manufacturers requiring 
        them to provide an explanation of their current procedures to 
        comply with early warning reporting (EWR) requirements. Under 
        this notice, manufacturers will have to describe their 
        practices for ensuring the accuracy and timeliness of their EWR 
        submission, as well as their process for ensuring the correct 
        assignment and interpretation of ODI component codes. ODI 
        developed a process for conducting ongoing periodic reviews of 
        manufacturer practices to ensure their continued compliance 
        with EWR requirements.
  --Recommendation 10, which was closed on April 18, 2016, was aimed at 
        implementing a supervisory review process to ensure that all 
        EWR data are analyzed according to ODI policy and procedures. 
        In response ODI implemented a process to conduct a bi-weekly 
        meeting between Early Warning Division (EWD) screeners--both 
        Federal employees as well as contractors--and the EWD chief. 
        These meetings will cover screeners' analysis of all forms of 
        EWR data and allow the EWD chief to provide feedback to 
        screeners, assess their familiarity with ODI policies and 
        procedures, and keep them informed of any updates to those 
        policies and procedures.
    Based our interactions with Agency staff and their actions taken to 
date, we believe that NHTSA is focused on implementing and closing our 
17 recommendations, and is on the right path to improving the 
stewardship of taxpayer resources.
    Question. Inspector General Scovel, in your 2015 Financial 
Information Security Management Act (FISMA) audit, you reported DOT had 
a number of challenges resolving plans of actions and milestones 
(POA&Ms) \3\--longstanding security vulnerabilities within DOT systems. 
What are DOT's challenges in resolving POA&Ms, and what is the Agency's 
status in implementing OIG recommendations?
---------------------------------------------------------------------------
    \3\ Per OMB Memorandum M-02-01,--A POA&M is a tool that assist 
agencies in identifying, prioritizing, and monitoring progress of 
corrective efforts for security weaknesses found in programs and 
systems.
---------------------------------------------------------------------------
    Answer. In 2014, DOT had a backlog of over 5,600 POA&Ms. In 2015, 
DOT had only resolved 1,798 (32 percent), leaving more than 3,820 
POA&Ms. Of the 3,820 unresolved POA&Ms:
  --2,023 POA&Ms do not have actual start dates. Of these, 188 are high 
        priority, and 1,569 are medium priority.
  --960 POA&Ms had no documented remediation costs. Of these, 53 are 
        high priority, 316 are moderate priority, 534 are low priority, 
        and 57 are not categorized.
    As part of our fiscal year 2015 FISMA audit, we issued 9 additional 
recommendations increasing the total number of OIG outstanding 
recommendations to 21. DOT's target action completion dates for all 21 
recommendations indicate that actions would be completed by the end of 
fiscal year 2016. However, we note that several recommendations have 
been open since 2010.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed
    Question. What is the timing for the NHTSA rulemaking for the 405 
grants?
    Answer. The agency plans to issue an interim final rule 
implementing the provisions for the Section 405 grants in May 2016..
    Question. Does NHTSA consider county-based or pilot 24/7 programs 
as qualifying for 405 and 164?
    Answer. NHTSA is currently engaged in rulemaking to implement this 
and other statutory grant requirements, and plans to publish a rule in 
the near future. Under Section 405, a 24-7 sobriety program is defined 
as a State law or program that authorizes a State court or an agency 
with jurisdiction to require driving under the influence (DUI) 
offenders to be subject to testing for alcohol or drug use. Section 164 
is similar in that States are responsible for meeting the statutory 
requirements and must either have the required law or program in place 
to be compliant.
    Question. Should NHTSA be doing a rulemaking to certify 24/7 
devices?
    Answer. Under the grant program in Section 405 and the transfer 
program in Section 164, compliance is based on a State having a law or 
program that authorizes DUI offenders to be tested for alcohol or 
drugs. The statutes direct a State to meet process requirements related 
to testing to be determined compliant (e.g., at least twice per day or 
by continuous transdermal monitoring). They do not mandate a particular 
device or that any device be used. Consequently, we do not believe that 
certifying 24/7 devices is necessary under the programs.
    Question. FRA and PHMSA have received increases in funding in 
recent years for safety with direct calls for more inspectors on routes 
that carry flammable liquids and passengers. What is the status for 
hiring the inspectors and safety personnel funded by this subcommittee 
at FRA and PHMSA?
    Answer. Regarding PHMSA:
    In fiscal year 2015, PHMSA received 7 additional inspection and 
enforcement positions to support the safe transportation of flammable 
liquids. The positions were allocated based on risk related to the 
transportation of flammable liquids. The position breakdown includes 
five new Inspectors located in Trenton, NJ (2), Kansas City, MO (1), 
Ontario, CA (1), and Houston, TX (1). In addition, there are two new 
Hazardous Materials Safety Assistance Team safety personnel located in 
Ontario, CA (1) and Atlanta, GA (1). As of April 2016, all positions 
have been successfully filled.
            Regarding FRA:
    The FRA received funding for 10 new inspectors, in fiscal year 
2014, and five more in fiscal year 2015. All 15 of these positions have 
been filled
    In fiscal year 2016, we received funding for four new inspectors. 
One of these positions has already been filled, and the remaining 3 are 
underway.
    FRA also filled all 15 positions for which we received funding in 
fiscal year 2014 in our Office of Railroad Policy and Development. 
These critical positions included analysts, engineers, and 
environmental and freight policy experts. Additionally, we filled 14 
more positions of the 20 for which we were funded for safety 
headquarters staff.
    In fiscal year 2016, we received funding for an additional 29 
regional and headquarters safety staff. FRA has already or will soon 
initiate the hiring process for all of these positions, and expects to 
fill most of them in this fiscal year.
    Question. Tire Pressure Monitoring Systems: Motorcoach safety is a 
priority for both NTSB and the Committee. Per Section 32703(c) of MAP-
21, DOT was directed to consider within 3 years whether motorcoaches 
should be equipped with direct tire pressure monitoring systems (TPMS). 
Such a requirement would be consistent with the 2009 National 
Transportation Safety Board (NTSB) Safety Recommendation H-09-022 that 
all new motor vehicles weighing over 10,000 pounds to be equipped with 
direct TPMS. Further, in February 2014, NTSB echoed the need for 
implementation this safety recommendation. The Committee requested a 
status update on the implementation of the MAP-21 requirement in Senate 
Report 113-182, which was adopted as part of the fiscal year 2015 
omnibus appropriations bill.
    The Committee is aware that the National Highway Traffic Safety 
Administration (NHTSA) recently conducted motorcoach safety equipment 
testing that included a testing of direct TPMS. Nonetheless, the MAP-21 
deadline has passed and the NTSB's recommendation remains open.
    What is the current status of the agency's consideration of direct 
TPMS on motorcoaches?
    Will the agency promulgate requirements in this area consistent 
with Safety Recommendation H-09-022?
    Answer. The agency has reviewed and evaluated the available crash 
data. The analysis did not reveal a safety need to justify regulatory 
action at this time. The agency will continue to monitor the crash data 
for tire under-inflation on motorcoaches and will pursue future 
regulatory action if warranted.
    Question. FMCSA Regulations on Windshield Mounted Vehicle Safety 
Technology: The Senate Appropriations Committee is aware of current 
FMCSA regulations that limit the ability of commercial motor carriers 
to mount vehicle safety technologies on windshields to prevent 
obstruction of a driver's field of view. The Committee is also aware 
that the agency routinely has recognized the benefits of certain safety 
technologies, and under current rules have provided 2 year exemptions 
(the maximum time allowable under the current rules) for such 
technologies.
    To that end, the Committee directed the FMCSA to move forward on 
prescribing regulations to modify 49 CFR 393.60(e) to permanently allow 
the voluntary mounting on a vehicle's windshield of vehicle safety 
technology likely to achieve a level of safety that is equivalent to, 
or greater than, the level of safety that would be achieved absent such 
an exemption. Further, the Senate also included such a provision in the 
FAST Act (Public Law 114-94), specifically Section 5301, which directed 
the agency to prescribe a regulation to address this, as well.
    Please provide an update on the status of these directives?
    When can the Committee expect an NPRM on this issue to be put 
forward?
    Will the agency meet the deadline included in the FAST Act to 
promulgate a rule to meet the requirements of the law?
    Answer. The Department's Federal Motor Carrier Safety 
Administration (FMCSA) has drafted an Interim Final Rule to amend 49 
CFR 393.60(e) to permanently allow the voluntary mounting of vehicle 
safety technology in the windshields of commercial motor vehicles. 
FMCSA does not anticipate completion of the rulemaking by the June 1, 
2016, deadline provided in the FAST Act. However, the Agency is 
committed to issuing the Interim Final Rule by July 1 and a final rule 
by the end of the calendar year.
    Question. Amtrak PTC Deployment: We were all deeply troubled by the 
deadly Amtrak accident in Philadelphia last year.
    Has Amtrak activated PTC on all Amtrak-owned infrastructure?
    Answer. No. Amtrak has activated PTC on all 396 route miles of the 
Northeast Corridor (NEC) which it owns, and 97 route miles of line in 
Michigan. Its electrified Harrisburg line is currently undergoing final 
testing, and is expected to be in service in 2016, along with its 
Empire Connection in New York. All other Amtrak owned line segments are 
slated to have PTC activated, or in operation, by the end of 2017.

----------------------------------------------------------------------------------------------------------------
                                                                                                 Estimated Start
                                                         Number of Route     Status at End of        Date for
                 Segment Identification                      Miles in         Calendar Year      Revenue Service
                                                             Segment                              Demonstration
----------------------------------------------------------------------------------------------------------------
NEC (Boston to Washington).............................             396           Operational/Complete         Completed
Philadelphia to Harrisburg.............................             104                Testing       March 2016
Springfield Line (New Haven to Springfield, MA)........              62             Installing        Dec. 2017
Empire Connection......................................              10                Testing       April 2016
Michigan Line (Amtrak Owned)...........................              97            Operational                 Completed
Michigan Line (State Owned)............................             135             Installing        June 2017
Hudson Line (Poughkeepsie to Hoffmans).................              94             Installing        Dec. 2017
Chicago Union Terminal.................................             1.5            Not Started        Dec. 2017
----------------------------------------------------------------------------------------------------------------

    Question. The next step that Amtrak will face is full deployment of 
PTC on the National Network. As you know, unlike the Northeast 
Corridor, most of Amtrak's operations occur over infrastructure owned 
by host railroads. I understand negotiations between host railroads and 
Amtrak over who will cover the cost for PTC implementation on the 
National Network are proceeding slowly, if at all. In order to meet the 
deadline for PTC implementation, Amtrak will have to make various 
investments in its rail network and equipment over the next two fiscal 
years.
    What is the FRA doing to budget for the costs of PTC implementation 
on Amtrak's National Network?
    Answer. The Department of Transportation has long-stated that 
public sector funding is necessary to assist resource-constrained 
commuter railroads, short line railroads, Amtrak, and States with 
implementing PTC. FRA has requested funding for PTC system development 
and implementation grants in every budget request dating back to fiscal 
year 2011 (which was released by President Obama on February 1, 2010). 
In fiscal year 2017, the $1.9 billion FRA requested for Grants to 
Amtrak includes funding under both the Northeast Corridor and National 
Network for PTC capital, equipment, and maintenance costs. Further, FRA 
requested $1.25 billion for PTC implementation under the new 
Consolidated Rail Infrastructure and Safety Improvement Program. In 
addition to supporting commuter and short line railroads, this program 
is targeted to assist States and Amtrak with their proportional share 
of PTC costs on Amtrak's State-Supported routes that are required due 
to Amtrak operations on those routes.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
    Question. Secretary Foxx, the safe transport of crude-by-rail is of 
great importance to me and my constituents. In almost every meeting 
that I take back home, people tell me they are concerned about oil 
trains running through their towns. While I appreciate the Department's 
attention to this critical issue to date and the investments in the 
fiscal year 2017 budget request, there is more work to be done. And it 
needs to be done at a much quicker pace.
    The National Transportation Safety Board issued three 
recommendations to the Pipeline and Hazardous Materials Safety 
Administration (PHMSA) in January 2014 after finding that current 
regulations are outdated and do not account for the reality of trains 
frequently transporting more than 100 tank cars. Today, we have robust 
requirements for oil spill response plans for pipelines and ships. We 
need them for railroads, too.
    Despite issuing an Advanced Notice of Proposed Rulemaking on 
comprehensive oil spill response plans in July 2014 and clear direction 
from Congress to begin a rulemaking within 90 days of enactment of the 
fiscal year 2016 Omnibus, PHMSA has failed to do so. In a January 4, 
2016 letter you outlined that PHMSA expects to release a proposed rule 
no later than June 2016 and complete a final rule in June 2017. This 
time line is simply unacceptable.
    Secretary Foxx, I am extremely disappointed in the continual delays 
on this critical rulemaking. My constituents are counting on this 
rulemaking to provide better protection for their communities and the 
environment. What is causing the delay? Do you need additional 
resources to support PHMSA's work on this rulemaking? I strongly urge 
you to begin and complete this rulemaking earlier than the current June 
2016 and June 2017 timeline. We must ensure trains carrying oil are 
treated no differently than pipelines or maritime vessels.
    Answer. The Pipeline and Hazardous Materials Safety Administration 
(PHMSA) shares your concerns and is working expeditiously to publish 
the Notice of Proposed Rulemaking (NPRM) entitled, ``Hazardous 
Materials: Oil Spill Response Plans and Information Sharing for High-
Hazard Flammable Trains.'' The DOT's Rulemaking Requirements \4\ 
outline the processes and procedures for completing significant 
rulemakings. In accordance with the procedures and as mandated by 
Executive Order, the Department provided the NPRM to the Office of 
Management and Budget (OMB) for interagency review on February 24, 
2016. The interagency review process coordinated by OMB may take up to 
90 days. Therefore, PHMSA expects the NPRM will be published in June 
2016. The DOT rulemaking procedures also require a 60 day public notice 
and comment period. Receiving comments from our stakeholders, including 
the emergency response community, is essential to protecting people and 
the environment from the risks of hazardous materials transportation. 
The volume and complexity of comments also impacts the additional 
analysis and drafting during the final rule stage. Typically, final 
rules require 1 year after the close of the NPRM comment period to 
complete.
---------------------------------------------------------------------------
    \4\ See https://www.transportation.gov/regulations/rulemaking-
requirements-2012.
---------------------------------------------------------------------------
    Question. Communities in Washington remain very concerned with the 
safety of the trains already running through their cities. And for good 
reason. Crude oil shipments by rail have skyrocketed in Washington 
State. The number went from almost no crude oil in 2011 to 17 million 
barrels of oil shipped across the State in 2013. With more than 10 
refinery expansions or crude oil facilities under consideration in 
Washington, this figure could raise to 241 million barrels a year.
    The new tank car standards rulemaking completed by DOT in May 2015 
is a step in the right direction to improve the safety of transporting 
crude oil.
    Secretary Foxx, is the Department on track to meet the first 
deadlines for upgrades to the DOT-111 non-jacketed tank cars by January 
1, 2018 and the DOT-111 jacketed tank cars shortly thereafter by March 
1, 2018? Do you foresee any problems with the manufacturing industry 
being capable of delivering these upgraded tank cars on this time line? 
The final rule also required any new tank cars constructed after 
October 1, 2015 to meet the enhanced DOT-117 design and performance 
criteria. How many of these DOT-117 tank cars have been produced and 
are in use today to transport crude oil?
    Answer. As of the 4th quarter of 2015, there were 1,793 DOT-117 and 
DOT-117R cars used in flammable liquid service. Almost 1,600 of those 
cars were constructed after October 1, 2015, to meet the enhanced DOT-
117 design and performance criteria. FRA does not expect the industry 
to have difficulty in producing additional DOT-117 cars.
    Question. I understand that the FAA is proposing to eliminate the 
Contract Weather Observer (CWO) program at 57 airports, including 
Spokane International Airport in Washington State. Today, the CWO 
program provides weather monitoring, augmentation, and back up for 
automated weather systems (ASOS) at 136 airports across the Nation.
    I believe this proposal would compromise aviation safety. The ASOS 
is limited in its ability to detect and accurately report on rapidly 
changing weather conditions and weather sensors periodically fail or 
malfunction. For example, weather such as freezing rain, freezing 
drizzle, smoke, and haze are critical to flight safety at Spokane 
International Airport, but these conditions are not reported by ASOS. 
In fact, in December 2015, the CWO program at Spokane International 
Airport documented over 900 separate augmentations to ASOS 
measurements. In addition, adding weather observation duties to air 
traffic controllers would degrade the speed and accuracy of the weather 
observations given existing workloads managing aircraft and 
requirements to for air traffic controllers to remain in the tower and 
make weather observing their lowest priority.
    Secretary Foxx, the CWO program is vital to the safety of our 
Nation's airspace and I am very concerned with this proposal. What 
analysis has the FAA conducted to ensure that such a change does not 
increase safety risks and hazards at these 57 airports? Furthermore, if 
the FAA believed air traffic controllers can and should take on weather 
observation duties why is this change not being proposed for all 136 
airports that currently have the CWO program? What makes the remaining 
79 airports with CWO programs different? I respectfully request that 
you reconsider this proposal and ask that you provide a full 
explanation of FAA's initial decision to eliminate the CWO program, 
including the stakeholder input and public comment that contributed to 
this decision.
    Answer. In accordance with our Safety Management System, the FAA 
conducted two Safety Risk Management Panels (SRMP) at appropriate 
facilities in order to make updates to weather data and variables, and 
traffic volume and complexity. The SRMPs also reviewed factors to 
consider in determining whether to use air traffic controllers or 
contract weather observers (CWO) to observe weather. Stakeholders and 
industry groups served on the panels, including Southwest Airlines, 
National Air Traffic Controllers Association, National Business 
Aviation Association, Air Line Pilots Association, National Oceanic 
Atmospheric Administration, CWO vendors, and others.
    Air traffic controllers currently function as weather observers at 
75 percent of the towers in the NAS (391 facilities). CWOs function in 
that capacity at the remaining 136 facilities. As a result of the 
SRMPs, the updated policy identified 57 of those 136 facilities as 
having similar weather and traffic volume/complexity as facilities 
where air traffic controllers are used as weather observers, and at 
this time the FAA is considering transitioning these facilities to 
controller-provided weather services.
    The SRMPs assessed the risk in transferring weather observation 
responsibilities from CWO to air traffic controllers at the 57 sites. 
No decision has been made at this time to transition any of the 57 CWO 
sites to controller provided observation services.
    Each of these safety panels will result in a recommendation, but 
they do not make the final decision. The FAA must take a comprehensive 
view of safety when it makes its final decisions. Ensuring the safety 
of our aviation system is always the highest priority, and the 
importance of accurate, reliable and detailed weather observations will 
be a priority concern during this process.
    Question. In the 2012 FAA authorization bill, Congress directed the 
FAA to develop a plan to realign and consolidate Terminal Radar 
Approach Control (TRACON) facilities. The FAA is now considering 
whether to close the TRACON facility at Grant County International 
Airport in Washington State and relocate the TRACON controllers to 
another airport.
    Grant County International Airport provides unique civilian and 
military aviation services to the aviation industry, both in support of 
national security interests and to the local community. On any given 
day, there is a blend of fast moving military aircraft, Boeing 
production and test aircraft, and slower-moving civilian aircraft all 
utilizing the same airspace and the same five active runways. During 
the summer months, this airspace is also shared by aircraft fighting 
forest fires in the Northwest. Very rarely do these aircraft arrive at 
Grant County International Airport and simply taxi off the runway as is 
the case at most other airports. Instead, these aircraft perform a 
variety of activities, including Rejected Take Off situations, 
simulated or actual equipment failures, touch-and-go landings, full 
stop and goes, wide area pattern work, and other operations that 
require an aircraft to hold on a runway or execute unusual maneuvers 
overhead.
    Grant County International Airport is a critical training ground 
for the Air Force and Navy. C-17s from Joint Base Lewis-McChord (JBLM) 
operate on the assault strip, P-3s and P-8s from Naval Air Station 
Whidbey Island conduct touch-and-go training, F-15s from the Oregon Air 
National Guard and EA-18Gs from Naval Air Station Whidbey Island come 
to operate within the airport's pattern, and KC-135s come from 
Fairchild Air Force Base (AFB) for training exercises. For JBLM in 
particular, the conditions and characteristics of Grant County 
International Airport cannot be replicated elsewhere in the Northwest. 
In the case of Fairchild AFB, the airport provides easy access for 
military aircrew training, allows training to occur at times when it 
cannot at Fairchild AFB due to weather or runway closures, and serves 
as their ready reserve base in the event of a natural disaster or other 
emergency.
    Secretary Foxx, I am concerned the FAA is not taking national 
security into account when it evaluates whether or not to close the 
TRACON at Grant County International Airport. Can you provide me with 
assurance that the FAA will in fact be considering national security 
when making the final decision?
    Answer. The FAA is evaluating TRACON facilities and services for 
realignment across the NAS, as required by the FAA Modernization and 
Reform Act. For clarification, the FAA is considering realigning TRACON 
facilities so that air traffic control services would be provided at 
another location, and not closing facilities and ending the provision 
of air traffic control services. The air traffic control towers are not 
a part of this process.
    The agency is fully committed to developing realignment 
recommendations and implementing any realignments in the safest manner, 
without affecting national security. At Grant County, the FAA 
management and Labor Union representatives met with stakeholders, 
including military, industry, and local government, to share 
information, answer questions regarding TRACON services, and discuss 
safety and security considerations. As required by the legislation, the 
FAA takes all stakeholder input and considerations into account 
throughout its analysis, recommendation development, and during the 
final decisionmaking stage of the process.
                                 ______
                                 
              Questions Submitted by Senator Brian Schatz
    Question. Safe Streets: Secretary Foxx, as you know I support 
community planning strategies to create walkable neighborhoods that 
minimize pedestrian fatalities. Hawaii has the highest pedestrian 
fatality rate among adults over 65 so this is more than an abstract 
philosophy to me, this is about reducing deaths among older people in 
Hawaii.
    Unfortunately, traffic fatalities among pedestrians went up again 
to 4,884 deaths in 2014. The FAST Act included language Senator Heller 
and I worked to secure directing USDOT to work with States and MPOs to 
help them implement planning that takes into pedestrian safety into 
account.
    Can you tell me how the department will implement this policy and 
generally what are you doing in 2016 to reverse the trend of pedestrian 
fatalities?
    USDOT has created a number of planning tools, manuals and best 
practices for States, MPOs and others to refer to and that's important. 
But what is the next step to take all of that information and get 
States to integrate it into their regular planning and construction 
process and start reducing that 4,884 number?
    Answer. First, I share your concern and assure you that safety is 
our highest priority and that commitment is the same for all forms of 
transportation people choose, including walking and bicycling..
    The lead action FHWA is taking in 2016 to ensure pedestrian safety 
is the recently issued Safety Performance Management Final Rule (23 CFR 
490), which requires all States and MPOs to annually establish and 
report on a target for each of five safety performance measures, 
including a nonmotorized safety performance measure: the number of 
combined nonmotorized fatalities and nonmotorized serious injuries on 
all public roads in the State or MPO planning area. This performance 
measure encourages all States and MPOs to address pedestrian and 
bicycle safety; recognizes that walking and biking are modes of 
transportation with unique crash countermeasures distinct from 
countermeasures to prevent motor vehicle crashes; and addresses the 
increasing trend in the total number of pedestrian and bicyclist 
fatalities in the United States. The Safety Performance Management 
regulation will improve data; foster transparency and accountability; 
and allow safety progress to be tracked at the national level. More 
information is available at: http://safety.fhwa.dot.gov/hsip/
rulemaking.
    Regarding the FAST Act provision you reference (section 1442), DOT 
is committed to continuing to encourage States and MPOs to adopt 
standards for the design of Federal surface transportation projects 
that provide for the safe and adequate accommodation of all users of 
the surface transportation network.
    We have significant programmatic work underway to build national 
capacity around multimodal planning and design issues, encourage a 
flexible approach to design, and reverse the trend of increasing 
pedestrian fatalities. This work will be captured in the report called 
for in section 1442.
    Question. Transit Costs: Secretary Foxx, I've read several articles 
recently which discussed how per-mile transit and rail capital 
construction in the US costs two to five times more than it does in 
other industrialized nations, such as Japan or Spain. There are even 
some very wide variations within the United States. Experts agree that 
this is a problem that must be fixed, but don't fully know the cause of 
these differences. Some speculate the issue may be due to poor 
interagency cooperation, project design and routing, procurement 
challenges or perhaps regulatory barriers.
    Here are some examples of the problem:
  --New York City's price for one kilometer of subway or commuter rail 
        tunnel is about five times more expensive than Tokyo's, eight 
        times more expensive than Berlin's or Paris's, and twelve times 
        more expensive than Barcelona's.
  --Phase 1 of WMATA's Silver Line which is entirely above-ground and 
        isn't located in a dense city center, clocked in at over $150 
        million per kilometer. In many developed European and Asian 
        countries, this would be enough to build a fully underground 
        subway line in a dense urban core.
  --For Amtrak, the Gateway project is estimated to cost $25 billion, 
        and its most ambitious plan for high speed rail on the 
        Northeast Corridor would cost nearly $300 billion. On a per-
        kilometer basis, this is about twice as expensive as the 
        predominantly underground Maglev bullet train that Japan is 
        building.
    With the underlying goal of stretching our transit dollars further 
I'm interested in pursuing a study to identify the root causes of these 
cost differentials.
    Is USDOT currently studying or otherwise working to understand why 
the costs of transit are so much more expensive in the U.S. than in 
other industrialized nations?
    If so, can you describe those efforts including a timeline for the 
work to be complete?
    Answer. FTA has not conducted an analysis comparing the costs of 
construction of transit systems within the United States with those of 
Europe or Asia. Additionally, FTA is not aware of research that has 
determined that the cost of constructing transit in the U.S. is more 
expensive than in other industrialized nations.
    FTA cautions that the average costs per kilometer cited in the 
question may not accurately reflect the actual costs of construction. 
Cost per-mile comparisons may not include major items such as the 
number of stations constructed or the number of vehicles purchased. 
Additionally, the comparisons may not take into account whether right-
of-way is privately or publicly held, costs of financing, etc.
    FTA has undertaken considerable efforts to analyze costs of FTA 
funded projects. In 2005 FTA implemented a new capital costing format, 
the Standard Cost Categories, to establish a consistent format for the 
reporting, estimating, and managing of capital costs for major transit 
projects. This information is then housed within FTA's Capital Cost 
Database that currently contains the as-built costs for 35, federally-
funded, light rail and heavy rail projects. The database is used for 
performing historical cost analysis and developing ``order-of-
magnitude'' cost estimates for conceptual transit projects. However, 
the database does not include information for international projects 
and it is therefore difficult to make like-to-like comparisons with 
those projects.
    Question. Port Financing: Secretary Foxx, I hear regularly from 
people in my State that they need more resources to improve port and 
harbor operations. Specifically the question I typically hear is, 
surface transportation has the Highway Trust Fund and airports have the 
Airport Trust Fund so why don't we have dedicated resources for land 
side improvements to our ports?
    The FAST Act created some grant programs for which port 
improvements are an eligible use and directed the creation of a 
National Multimodal Freight Policy. My question is, are we on track to 
systematically partner with States and port authorities in a way that 
meets the infrastructure needs described in the Department's Beyond 
Traffic framework over the next 30 years?
    Answer. The FAST Act includes several provisions to improve the 
condition and performance of the national freight network and to 
support investment in freight-related surface transportation projects, 
including opportunities to enhance land-side improvements to ports. 
States and port authorities will have an unprecedented opportunity to 
partner in an effort to address our infrastructure deficit.
    FASTLANE Grants, under the Nationally Significant Freight and 
Highway Projects program, authorizes $4.5 billion for nationally and 
regionally significant freight and highway projects over fiscal years 
2016 to 2020, with up to $500 million authorized this year for freight 
rail, water (including ports), or other freight intermodal projects. 
Applications for FASTLANE grants were due April 14,2016, and we have 
had significant initial interest in the program, including from States 
and port authorities.
    The Department has also taken important strides to educate ports 
about the existing eligibilities within the Surface Transportation 
Block Grant Program, the Transportation Infrastructure Finance and 
Innovation Act (TIFIA) program, and the Railroad Rehabilitation and 
Improvement Financing (RRIF) program. MARAD's StrongPorts initiative 
has published a Port Financing Guide and is partnering with the Build 
America Transportation Investment Center to provide technical 
assistance to ports looking to access U.S. DOT funding and financing.
    Additionally, the TIGER grant program received $500 million in 
fiscal year 2016 appropriations and offers another opportunity to fund 
port infrastructure projects. Through seven rounds, TIGER has awarded 
funding to 45 port projects totaling $541.1 million, including two 
planning grants. These projects are located across 24 States and 
account for 11.7 percent of total TIGER funding.
    These programs will help to meet some of the infrastructure needs 
described in our Beyond Traffic framework. The FAST Act provides 
certainty to States, local governments, port authorities, and the 
private sector; however, it is only a down-payment for building 21st 
Century surface transportation systems that our Nation deserves. The 
demand for surface transportation infrastructure investment is 
overwhelming, yet the FAST Act largely maintains current programs, with 
limited support for multimodal plans and projects. That is why the 
President's fiscal year 2017 budget request includes additional 
multimodal programs and investments, to build off of the FAST Act 
provisions and to continue to meet the infrastructure needs of our 
surface transportation system over the next 30 years.
    Question. Paratransit programs: Secretary Foxx, the FAST Act 
includes several provisions to improve the mobility of people with 
disabilities including new flexibility for the use of funds for 
operating expenses to transit agencies that demonstrate paratransit 
improvement activities, new inter-agency coordination efforts among 
Federal agencies and new demonstration authority. Can you discuss the 
Department's plans to assure these programs get up and running as 
quickly as possible?
    Answer. The FAST Act includes several provisions to improve the 
mobility of individuals with disabilities and the Federal Transit 
Administration (FTA) has moved quickly to implement these provisions as 
described below.
    The FAST Act permits FTA grant recipients to use up to 20 percent 
(rather than up to 10 percent) of urban or rural transit formula funds 
to operate Americans with Disabilities Act (ADA) paratransit service if 
certain conditions are met. On February 16, 2016, FTA published in the 
Federal Register a Notice of FTA Transit Program Changes, Authorized 
Funding Levels, and Implementation of Federal Public Transportation Law 
as Amended by the Fixing America's Surface Transportation (FAST) Act 
and FTA fiscal year 2016 Apportionments, Allocations, Program 
Information and Interim Guidance that implemented this provision.
    The FAST Act also created a new pilot program for innovative 
coordinated access and mobility, authorizing grants to eligible 
recipients to assist in financing innovative projects for the 
transportation disadvantaged that improve the coordination of 
transportation services and non-emergency medical transportation 
services. On March 29, 2016, a Notice of Funding Opportunity (NOFO) was 
published in the Federal Register announcing the availability of $2 
million of fiscal year 2016 funding under this program, as well as $3.3 
million in additional research funding for the Rides to Wellness 
Demonstration and Innovative Coordinated Access and Mobility Grants 
(R2W Demonstration Grants). The FTA will be holding a webinar on April 
20, 2016 to further explain the grant program to potential grantees. 
The application deadline is May 31, 2016. The goal of the competitive 
R2W Demonstration Grants is to find and test promising, replicable 
public transportation healthcare access solutions that support the 
following Rides to Wellness goals: increased access to care, improved 
health outcomes and reduced healthcare costs.
    Finally, the FAST Act included new statutory requirements regarding 
the Federal Coordinating Council on Access and Mobility (CCAM), 
including a requirement to publish a strategic plan. FTA is working 
with its Federal agency partners on CCAM to develop a work plan that 
addresses the required elements of this plan. FTA is already working 
together with staff from the Departments of Health and Human Service, 
Veterans Affairs, and Agriculture on joint projects to improve the 
linkages between transportation and healthcare. These projects include 
a series of Rides to Wellness forums to increase partnerships between 
healthcare and transportation providers, a research project to identify 
the impact of transportation on missed appointments and therefore on 
the cost of healthcare and funding to encourage innovative solutions to 
healthcare access challenges.
                                 ______
                                 
             Questions Submitted by Senator Lindsey Graham
    Question. The recently enacted FAST Act contains three tire-related 
provisions for which rulemakings are required: tire performance 
standards for rolling resistance and wet traction; mandatory tire 
registration by tire sellers at point of sale and; a tire recall lookup 
tool on NHTSA's web site. What is the agency's timetable for 
implementing each of these rulemakings?
    Answer. The FAST Act requires NHTSA to promulgate regulations for 
tire rolling resistance and wet traction minimum performance standards 
by December 4, 2017. NHTSA has already begun the required testing to 
guide the wet traction regulation.
    The FAST Act requires NHTSA to initiate a rulemaking for mandatory 
tire registration by independent sellers. However, there is no 
statutory deadline for completing this rulemaking and the agency has 
not yet developed a time table for completing this rulemaking.
    The FAST Act also requires NHTSA to establish a publicly available 
and searchable electronic tire recall database. The statute does not 
require this provision to be implemented through a rulemaking and there 
is no statutory deadline. NHTSA has not yet developed a time table for 
completing this provision. The agency is gathering information and 
meeting with stakeholders to discuss each of these requirements.
    Question. NHTSA has not completed a rulemaking required under the 
2007 Energy Independence and Security Act (EISA) that mandated consumer 
information about tire fuel efficiency, wet traction and tread wear. 
The White House announced in December 2014 that NHTSA would finalize 
that rule by 2017. According to NHTSA's most recent schedule, a 
proposed rule should have been sent to OMB on February 10, 2016 but 
that did not happen. What is the agency's revised timetable for 
completing this rulemaking within the White House imposed deadline?
    Answer. NHTSA published a final rule in 2010 establishing test 
methods that would be used for the new consumer information program. 
However, the 2010 final rule did not specify the content or 
requirements of the consumer information and education portions because 
NHTSA needed to conduct additional consumer testing and resolve 
important issues raised by public comments on the proposal. The agency 
is drafting a supplemental notice of proposed rulemaking and expects to 
finalize the rule in 2017.

                          SUBCOMMITTEE RECESS

    Senator Collins. This hearing is now adjourned.
    [Whereupon, at 4:24 p.m., Wednesday, March 16, the 
subcommittee was recessed, to reconvene at a date and time 
subject to the call of the Chair.]
</pre></body></html>
